<html>
<title> - LEGISLATIVE HEARING ON: DRAFT LEGISLATION TO IMPROVE REPRODUCTIVE TREATMENT PROVIDED TO CERTAIN DISABLED VETERANS; DRAFT LEGISLATION TO DIRECT THE DEPARTMENT OF VETERANS AFFAIRS (VA) TO SUBMIT AN ANNUAL REPORT ON THE VETERANS HEALTH ADMINISTRATION; H.R. 271; H.R. 627; H.R. 1369; H.R. 1575; AND, H.R. 1769</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


   LEGISLATIVE HEARING ON: DRAFT LEGISLATION TO IMPROVE REPRODUCTIVE 
 TREATMENT PROVIDED TO CERTAIN DISABLED VETERANS; DRAFT LEGISLATION TO 
  DIRECT THE DEPARTMENT OF VETERANS AFFAIRS (VA) TO SUBMIT AN ANNUAL 
REPORT ON THE VETERANS HEALTH ADMINISTRATION; H.R. 271; H.R. 627; H.R. 
                    1369; H.R. 1575; AND, H.R. 1769

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON HEALTH

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                        THURSDAY, APRIL 23, 2015


                           Serial No. 114-17

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


         Available via the World Wide Web: http://www.fdsys.gov
         
         
                             ______________
                             
                             
                      U.S. GOVERNMENT PUBLISHING OFFICE
98-634                      WASHINGTON : 2016                      
                     
_______________________________________________________________________________________     
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0760776847647274736f626b772964686a29">[email&#160;protected]</a>  

            
                     
                     
                     
                     
                     
                     
                     
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA COLEMAN RADEWAGEN, American 
    Samoa
MIKE BOST, Illinois
                       Jon Towers, Staff Director
                Don Phillips, Democratic Staff Director

                         SUBCOMMITTEE ON HEALTH

                    DAN BENISHEK, Michigan, Chairman

GUS M. BILIRAKIS, Florida            JULIA BROWNLEY, California, 
DAVID P. ROE, Tennessee                  Ranking Member
TIM HUELSKAMP, Kansas                MARK TAKANO, California
MIKE COFFMAN, Colorado               RAUL RUIZ, California
BRAD R. WENSTRUP, Ohio               ANN M. KUSTER, New Hampshire
RALPH ABRAHAM, Louisiana             BETO O'ROURKE, Texas

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                           
                           C O N T E N T S

                              ----------                              

                        Thursday, April 23, 2015

                                                                   Page

Legislative Hearing on: Draft Legislation to Improve Reproductive 
  Treatment Provided to Certain Disabled Veterans; Draft 
  Legislation to Direct the Department of Veterans Affairs (VA) 
  to Submit an Annual Report on the Veterans Health 
  Administration; H.R. 271; H.R. 627; H.R. 1369; H.R. 1575; and, 
  H.R. 1769......................................................     1

                           OPENING STATEMENT

Dan Benishek, Chairman...........................................     1
Julia Brownley, Ranking Member...................................     3
Hon. Jeff Miller
    Prepared Statement...........................................    35

                               WITNESSES

Hon. Gus Bilirakis, U.S. House of Representatives 12th District, 
  Florida........................................................     4
    Prepared Statement...........................................    36

Hon. Janice Hahn, U.S. House of Representative, 44th District, 
  California.....................................................     6
    Prepared Statement...........................................    38

Hon. Jackie Walorski, U.S. House of Representative, 2nd District, 
  Indiana........................................................     7
    Prepared Statement...........................................    39

Blake Ortner, Deputy Government Relations Director, Paralyzed 
  Veteran of America.............................................    14
    Prepared Statement...........................................    41

Louis J. Celli Jr. Director, National Veterans Affairs and 
  Rehabilitation Division, The American Legion...................    15
    Prepared Statement...........................................    50

John Rowan, National President, VVA..............................    17
    Prepared Statement...........................................    60

Adrian Atizado, Assistant National Legislative Director, DAV.....    19
    Prepared Statement...........................................    67

Rajiv Jain M.D., Assistant Deputy Under Secretary for Health for 
  Patient Care Services, VHA, U.S. Department of Veterans Affairs    28
    Prepared Statement...........................................    73

    Accompanied by:

        Janet Murphy, Acting Deputy Under Secretary for Health 
            for Operations and Management, VHA, U.S. Department 
            of Veterans Affairs

    And

        Jennifer Gray, Attorney, Office of the General Counsel, 
            U.S. Department of Veterans Affairs

                             FOR THE RECORD

Hon. Corrine Brown, FC Ranking Member
    Prepared Statement...........................................    92
American Health Care Association.................................    93

American Society for Reproductive Medicine.......................    94

Concerned Veterans for America...................................    96

RESOLVE: National Infertility Association........................    97

Veterans of Foreign Wars of the United States....................    98

Wounded Warrior Project..........................................   104

 
   LEGISLATIVE HEARING ON: DRAFT LEGISLATION TO IMPROVE REPRODUCTIVE 
 TREATMENT PROVIDED TO CERTAIN DISABLED VETERANS; DRAFT LEGISLATION TO 
  DIRECT THE DEPARTMENT OF VETERANS AFFAIRS (VA) TO SUBMIT AN ANNUAL 
REPORT ON THE VETERANS HEALTH ADMINISTRATION; H.R. 271; H.R. 627; H.R. 
                    1369; H.R. 1575; AND, H.R. 1769

                              ----------                              


                        Thursday, April 23, 2015

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                                    Subcommittee on Health,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:00 a.m., in 
Room 334, Cannon House Office Building, Hon. Dan Benishek 
[chairman of the subcommittee] presiding.
    Present:  Representatives Benishek, Bilirakis, Roe, 
Huelskamp, Coffman, Wenstrup, Abraham, Brownley, Takano, Ruiz, 
Kuster, and O'Rourke.
    Also present: Representatives Walorski and Titus.

           OPENING STATEMENT OF CHAIRMAN DAN BENISHEK

    Mr. Benishek. The subcommittee will come to order.
    Before we begin, I would like to ask unanimous consent for 
my friends, colleagues, and members of the full committee, 
Congresswoman Jackie Walorski of Indiana and Congresswoman Dina 
Titus of Nevada, to sit on the dais and participate in today's 
proceedings. Without objection, so ordered.
    Thank you all for joining us today as we discuss seven 
bills that will impact the healthcare provided to our Nation's 
veterans by the Department of Veterans Affairs' healthcare 
system.
    The bills on our agenda today are draft legislation to 
improve reproductive treatment provided to certain disabled 
veterans; draft legislation to direct VA to submit to an annual 
report on the Veterans Health Administration; H.R. 271, the 
Creating Options for Veterans Expedited Recovery or COVER Act; 
H.R. 627 to expand the definition of homeless veteran for 
purposes of benefits under the laws administered by VA; H.R. 
1369, the Veterans Access to Extended Care Act of 2015; H.R. 
1575 to make permanent the pilot program on counseling in 
retreat settings for women veterans newly separated from 
service; and, H.R. 1769, the Toxic Exposure Research Act of 
2015.
    I am proud to sponsor two of the bills on our agenda, the 
draft bill to direct VA to submit an annual report on the 
Veterans Health Administration and H.R. 1769, the Toxic 
Exposure Research Act of 2015.
    The draft bill would require the VA to submit an annual 
report to Congress regarding the provision of hospital care, 
medical services, and nursing home care by the VA healthcare 
system. The annual report would contain information regarding 
access to care, quality of care, workload, patient demographics 
and utilization, physician compensation and productivity, 
purchased care, and pharmaceutical prices.
    This measure is the result of the subcommittee's oversight 
hearing in January where the Congressional Budget Office 
testified that VA provided limited data to Congress and the 
public about its costs and operational performance and that if 
it was provided on a regular and systemic basis could help 
inform policymakers about the efficiency and cost effectiveness 
of VA's services.
    Similar sentiments were echoed by witnesses from The 
American Legion and the Independent Budget. VA must become more 
transparent and forthcoming about the care that it provides to 
our Nation's veterans so that Congress, stakeholders, 
taxpayers, and veterans can make informed determinations about 
the services that the department is offering and how they can 
be improved.
    The intent of our hearing in January was to determine the 
cost and value of VA care. But during our discussion, it became 
painfully obvious that the department leaders were unable to 
provide basic information about, say, how much the VA spends on 
a single patient encounter in a VA primary care clinic.
    As a doctor myself, it is unfathomable to me that the VA 
either does not have or is unwilling to share granular data 
about the cost of the services it provides. This bill and the 
free flow of information that it will require of the VA on a 
yearly basis will fix that once and for all, resulting in a 
better, stronger VA healthcare system that our veterans 
deserve.
    My other bill, the Toxic Exposure Research Act of 2015, 
would establish a national center for research into the health 
conditions experienced by the descendants of veterans exposed 
to toxic substances. It would also create an advisory board who 
would be responsible for advising the national center, 
determining health conditions that result from toxic exposure, 
and studying and evaluating the cases of exposure.
    In addition, it would authorize the Department of Defense 
to declassify documents related to a known incident in which at 
least a hundred servicemembers were exposed to a toxic 
substance that resulted in at least one case of related 
disability.
    Finally, it would create a national outreach campaign 
jointly led by VA, DoD, and the Department of Health and Human 
Services on the potential long-term health effects of exposure 
to toxic substances by servicemembers, veterans, and their 
descendants.
    As I said before, injuries or illnesses that result from 
exposure to toxic chemicals can have life-long and generational 
effects, the impacts of which we do not yet fully understand, 
but are nevertheless painfully prevalent to the veterans and 
family members who experience them.
    For them and for future generations, we must do more to 
recognize, research, and treat toxic exposure issues and 
thoroughly evaluate the long-term effects exposure can have not 
just on those who serve but on their children and grandchildren 
as well.
    Mr. Benishek. Enough about my bills. In addition to those 
bills, I am proud to be an original cosponsor for H.R. 627 
which would expand the definition of a homeless veteran to 
include veterans and their families who are fleeing from 
domestic or dating violence, sexual assault, stalking or other 
life-threatening conditions in their current home and lack the 
resources to obtain other permanent housing.
    Veterans who are living in a violent home deserve our 
support as they recover from the devastating effects of 
intimate partner violence and begin to reclaim their lives.
    I am grateful to my friend and colleague, Congresswoman 
Janice Hahn from California, for championing their cause with 
this legislation and I urge all my colleagues to join us in 
cosponsoring H.R. 627.
    The draft bill 1769, H.R. 1769 and H.R. 627 are supported 
by a number of our veteran service organizations and I thank 
them all for their support and comments and recommendations. I 
look forward to working closely with them, the department, and 
other stakeholders beginning with today's hearing to strengthen 
these and all the bills on our agenda where needed and advance 
them through the subcommittee without delay.
    I thank all of our witnesses and the audience members for 
being here today and I will now yield to the Ranking Member 
Brownley for any opening statements she may have.

       OPENING STATEMENT OF RANKING MEMBER JULIA BROWNLEY

    Ms. Brownley. Thank you, Mr. Chairman, for calling this 
hearing this morning.
    I don't have any bills to speak to today personally, but I 
do look forward to hearing from members and witnesses today 
regarding the five bills and two pieces of draft legislation 
that are on the agenda this morning including yours, Mr. 
Chairman.
    As we deliberate on the multitude of issues and concerns 
that are before us each and every Congress, it is critical that 
we are as informed as we possibly can be on all of the issues. 
We rely on the information we receive during these legislative 
hearings to improve upon the services and benefits that the 
Department of Veterans Affairs provides to our veterans and 
their families. It is also important that we are made aware of 
any unintended consequences that may arise from these different 
bills.
    Today we will hear, as the chair has already stated, we 
will hear from the panels on a variety of bills concerning the 
subcommittee's jurisdiction. We have two bills addressing the 
treatment of mental health, one on domestic violence and on 
homeless veterans, one on research and to toxic exposures, and 
a bill that addresses the provision of extended care services 
to veterans.
    In addition to the five bills, we will hear about two 
pieces of draft legislation. The first would authorize VA to 
provide in vitro fertilization services to eligible veterans 
and spouses. The second requires the VA to submit a report to 
Congress on hospital care, medical services, and nursing homes.
    I am on the record as a supporter of reproductive rights 
for all our veterans. Too many of our young men and women have 
been injured so severely that having children is now not an 
option. IVF might not be the solution for these families and we 
need to be sensitive to their needs also.
    Hopefully we can work together to find a way forward to 
ensure that all veterans who want a family including same sex 
veterans will have all the support and assistance they may need 
to do that.
    I appreciate all the witnesses being here today. I 
appreciate the chair calling this meeting and I look forward to 
everyone's testimony. I yield back.
    Mr. Benishek. Thank you.
    Well, we are this morning to be joined by several other of 
our members who are sponsoring legislation this morning. Mr. 
Miller, the chairman of the committee, will be in, Congressman 
Gus Bilirakis from the 12th District of Florida, Congresswoman 
Janice Hahn from the 44th District of California, Congresswoman 
Jackie Walorski from the 2nd District of Indiana.
    I think I will start with Mr. Bilirakis. Would you please 
go ahead with your legislation.

 STATEMENT OF HON. GUS BILIRAKIS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Bilirakis. Mr. Chairman, I appreciate it very much and 
I want to thank the ranking member as well.
    Thank you for holding this very important hearing and 
giving me the opportunity to discuss my bill, H.R. 271, the 
Creating Options for Veterans Expedited Recovery Act, the COVER 
Act.
    Statistics show that one in five veterans who serve in Iraq 
and Afghanistan have been diagnosed with the posttraumatic 
stress. Now, we must responsibly ask ourselves are we doing 
enough when it comes to addressing mental health in our 
veterans' population. I don't think so.
    Recent data has shown that every day in this country, 
approximately 18 to 22 veterans take their own lives. This 
statistic answers the question I posed earlier. It is obviously 
more--Mr. Chairman, more needs to be done in my opinion. That 
is why I introduced the COVER Act in the 114th Congress.
    The COVER Act will establish a commission to examine the 
Department of Veterans Affairs' current evidence-based therapy 
treatment model for treating mental illness among veterans. It 
will also analyze the potential benefits of incorporating 
complementary, alternative treatments available within our 
communities.
    The duties of the commission designated under the COVER Act 
include conducting a patient-centered survey within each 
Veteran Integrated Service Network. The survey will examine 
several different factors related to the preferences and 
experiences of veterans when they have dealt with the 
Department of Veterans Affairs.
    Instead of presuming to know what is best for veterans, we 
should just ask the veteran. It is as simple as that. Then we 
can work with veterans on finding the right solution that best 
fits their own unique needs. Not one size fits all.
    The scope of the survey will include the experience of a 
veteran when seeking medical assistance within the Department 
of Veterans Affairs, the experience of veterans with the non-VA 
medical facilities and health professionals for treating mental 
health illness, the preferences of a veteran on available 
treatments for mental health and which they believe to be most 
effective, the prevalence of prescribing prescription drugs 
within the VA as remedies for treating mental illnesses, and 
outreach efforts by the VA secretary on available benefits and 
treatments.
    Additionally, the commission will be tasked with examining 
the available resources on complementary, alterative treatments 
for mental health. Then the commission will identify what 
benefits could be attained with the inclusion of such 
treatments for our veterans seeking care at the VA.
    Some of the alternative therapies include among others, of 
course, accelerated resolution therapy, music therapy, yoga, 
acupuncture therapy, meditation, outdoor sports therapy, and 
training and care for service dogs.
    Finally, the commission will study the potential increase 
in health claims for mental health issues for veterans 
returning from the most recent theaters of war. We must ensure 
that the VA is prepared with the necessary resources and 
infrastructure to handle the increase in those utilizing their 
earned benefits to address the mental and physical elements 
incurred from military service.
    Once the commission has successfully completed their 
duties, a final report will be issued. Its recommendations and 
findings will be made available based on the analysis of the 
patient-centered survey, alternative treatments, and evidence-
based therapies.
    The commission will also be responsible for creating a plan 
to implement those findings in a feasible, timely, and cost-
effective manner.
    Last Congress, I was very pleased that the subcommittee 
considered the COVER Act in a legislative hearing. At this 
hearing, all the VSOs and organizations testified and have 
supported the COVER Act. I want to thank all again, all of you 
really for your support through your testimonies given today.
    In this year's draft, I was also pleased to incorporate the 
recommendations offered by the Vietnam Veterans of America. 
They suggested that appointees on the commission must not have 
proprietary, financial, or any other conflicting interest in 
any of the treatment considered, and I think that is very 
reasonable and I appreciate their recommendations.
    In closing, we have the support from veterans and the 
organizations that work closely with them. And it is clear that 
there is a need to do more and that is what we need to do. We 
need to do more for our true American heroes. We have that 
responsibility. We have that duty.
    The question now is this: What do we intend to do about it? 
We definitely have to act on this bill and I really appreciate, 
Mr. Chairman, you agendaing this bill today and I would love to 
see it marked up very soon.
    With that, I urge my colleagues again to support this bill 
and cosponsor this bill. Let's get this done for our heroes. 
Thank you.

    [The prepared statement of Gus Bilirakis appears in the 
Appendix]

    Mr. Benishek. Thanks, Mr. Bilirakis.
    Now we will hear from our colleague, Representative Hahn. 
You are now recognized for five minutes.

  STATEMENT OF HON. JANICE HAHN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Hahn. Thank you. And thank you, Chairman Benishek, for 
holding this hearing. It is an honor for me to be with Ranking 
Member Brownley and really all the distinguished members of 
this committee. Thank you.
    Homeless veterans are such a pressing problem for this 
Nation. More than 62,000 veterans are homeless on any given 
night and over 120,000 veterans will experience homelessness 
over the course of the year. And while only seven percent of 
Americans qualify as veterans, they make up nearly 13 percent 
of the homelessness population in this country. Sadly, my 
hometown, Los Angeles County, has the most homeless veterans in 
the Nation.
    And today I wanted to address one segment of homeless 
veterans, those who are homeless because of domestic violence. 
Currently the Department of Veterans Affairs' definition of 
homeless veterans does not include veterans who are homeless 
because of domestic violence. And across the country, we know 
too many victims of domestic violence feel there is nowhere for 
them to turn.
    And lacking resources, help, and a safe place to go, many 
of these victims feel like their only choice is to remain with 
their abusers. And tragically too often women veterans are 
among those who find themselves in this horrible situation.
    According to the VA, 39 percent of our women veterans 
report experiencing domestic violence. That is well above the 
national average. And, however, because of antiquated laws on 
the books, they have not been eligible to access resources 
designated for homeless veterans.
    I approached Chairman Benishek with my legislation, H.R. 
627, which updates the definition of homeless veteran to 
include victims fleeing domestic violence. And not only was he 
extremely supportive, but he joined me in introducing it. And 
for that, I really thank you, Chairman.
    Our legislation will update the definition of homeless 
veteran to include veterans fleeing domestic violence and will 
correct what I believe is an oversight and ensure that veterans 
fleeing domestic violence can receive benefits from the VA. 
This is a minor change, but it has great importance to ensure 
that our veterans do not feel trapped in dangerous situations.
    H.R. 627 is endorsed by countless veterans' organizations 
such as the Veterans of Foreign Wars, AMVETS, the National 
Coalition for Homeless Veterans, the Servicewomen's Action 
Network, Blinded Veterans Association, and we have many more on 
that list.
    Providing benefits to veterans driven to homelessness by 
domestic violence is, I think, something we should all support 
and we have supported that in the past. In fact, I have worked 
with House Appropriations Veterans Affairs' subcommittee to 
include report language the past two years to make these 
benefits available.
    But that process only helps until the next year and has to 
be repeated every year to provide this temporary help. I think 
it is time to stop making temporary fixes. This legislation 
permanently fixes this loophole for veterans. And while it is 
unknown how many veterans will be helped by this bill, I just 
believe if it helps one veteran get the support they need and 
to leave a dangerous situation, then our work here will be 
worth every minute. Let's step up to provide these heroes who 
have protected us with the resources they need including a 
place where they can be safe and protected.
    In conclusion, I want to thank you for working with me to 
solve an urgent problem and I yield back the balance of my 
time.

    [The prepared statement of Janice Hahn appears in the 
Appendix]

    Mr. Benishek. Thank you very much.
    Representative Walorski, you are recognized for five 
minutes.

STATEMENT OF HON. JACKIE WALORSKI, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF INDIANA

    Ms. Walorski. Good morning. Thank you.
    Chairman Benishek, Ranking Member Brownley, members of the 
committee, thank you for the opportunity to discuss H.R. 1369, 
the Veterans Access to Extended Care Act. This important bill 
would expand veterans' access to certain healthcare services 
and allow former servicemembers to receive those services from 
local providers.
    Currently VA offers a variety of long-term services and 
support to veterans including nursing home care, adult day 
care, respite care. Non-VA providers at community organizations 
must contract with the VA under the Service Contract Act to 
provide these services.
    The Service Contract Act's burdensome reporting 
requirements, the Department of Labor, along with the 
compliance costs discourage local providers from entering into 
contracts with the VA. This situation has left many veterans 
and their families without the ability to find providers close 
to home.
    In February of 2013, the VA issued a proposed rule which 
would have allowed providers to enter into these agreements 
with the VA under the same guidelines that providers for 
Medicare enter into agreements with CMS. Non-VA providers would 
no longer be considered federal contractors, relieving them 
from the burdensome reporting requirements.
    In conjunction with a Senate letter that was sent June of 
2014, Congresswoman Tulsi Gabbard and I along with 107 of our 
colleagues in the House sent a letter in August of 2014 to 
Secretary McDonald encouraging the release of the final VA 
provider agreement rule. Unfortunately, despite the willingness 
of the department, the VA never had the legislative authority 
to begin to enact the rule.
    In response, Representative Gabbard and I introduced H.R. 
1369, Veterans Access to Extended Care Act. This commonsense 
bill gives the VA the legislative authority, the fix it needs 
to follow through the original proposed rule. Specifically this 
bill exempts extended care service providers from being treated 
as federal contractors for the acquisition of goods or 
services.
    The bill also relieves providers from certain reporting 
requirements to the Department of Labor. Lastly, it includes 
quality assurance provisions to ensure the safety and a high 
standard of care our veterans deserve.
    Incentivizing more local providers to work with the VA will 
increase access to care that is closer to home, allowing family 
and friends to provide additional support structures to our 
veterans. The family structure during these times is vital to 
ensuring a veteran's quality of life.
    These individuals have sacrificed so much in the name of 
liberty, they should not have to worry about being able to find 
care close to home because their hometown providers don't have 
the necessary resources to qualify as a government contractor. 
Eliminating this designation will encourage more extended 
service providers to enter into agreements which will provide 
much more options, many more options to our veterans.
    Providing veterans with the care they need and deserve 
continues to be a top priority of mine and most of us on this 
committee. I am grateful to work with Representative Gabbard, 
Senator Hoeven, Senator Manchin, and the committee in 
addressing this critical issue for our veterans.
    And I thank you again, Mr. Chairman, Ranking Member 
Brownley, for the opportunity to be here today. I yield back my 
time.

    [The prepared statement of Jackie Walorski appears in the 
Appendix]

    Mr. Benishek. Thank you very much for your testimony.
    The chairman of the committee is expected to be here to 
testify on behalf of his legislation as well, but I am not 
going to ask any questions of the members here in the reference 
of time because I know I am going to have adequate time to talk 
to them as time goes by here in the House.
    Ms. Brownley, do you have any questions?
    Any questions for the panel members from any of the 
members?
    And thank you. The first panel is excused. And then we will 
proceed with the second panel.
    Mr. Takano. Dr. Benishek, just a real quick question of Mr. 
Bilirakis and Mr. Ruiz, Dr. Ruiz.
    Your commission that you are trying to set up is a very 
interesting one to me and I commend you for the bill. And I 
gather the big impetus is to try and find ways to not 
necessarily--I mean, former Secretary Shinseki I remember 
talking about the use of medications and how we are using too 
much of them with our veterans.
    I want to share with you that I was at an event probably 
last session with a California Commission for the Humanities 
and Professor Emeritus David Glidden of University of 
California Riverside is a professor of philosophy. And one of 
the participants was a female veteran who had taken part in his 
philosophy class which explored the big moral questions about 
life, you know.
    And it strikes me that a lot of veterans face not just the 
mental issue, mental health issues but the spiritual issues. We 
send young people into battle, many of them not really thinking 
about the moral consequences of war, and they come back with 
all that weighing on their minds. And rather than medications, 
many of them just really could benefit by going to a well-
considered course put together by a very talented person in 
humanities.
    And I wonder if you might consider looking at including a 
perspective, say, from the National Endowment for the Arts or 
the National Endowment for the Humanities ways to leverage 
those budgets and encouraging our humanities and arts community 
to think about how they can engage with our veterans. And this 
is also providing a pathway that is different than medication.
    And one of the things that this veteran mentioned was that 
sometimes there is a stigma attached to seeking mental health 
and this is another pathway that a veteran can take that, you 
know, doesn't necessarily mean that they have to feel like they 
are stigmatized by that.
    And, of course, we want to remove the stigma period.
    Mr. Bilirakis. Absolutely.
    Mr. Takano. But it is a thought I wanted to offer.
    Mr. Bilirakis. Oh, I would be willing to discuss that with 
you.
    Mr. Takano. Yes. Thank you.
    Mr. Bilirakis. Again, you know, the examples that I used 
are just examples and we are not limiting it to that. And I 
would like to hear maybe from Dr. Ruiz, too, because he is a 
cosponsor of my bill, the prime cosponsor. But I would take 
that into consideration. I would be happy to discuss that with 
you.
    Mr. Ruiz. Thank you. I think that the commission will be 
looking at events like that and that is why want to form the 
commission----
    Mr. Bilirakis. Absolutely.
    Mr. Ruiz [continuing]. Because then they can look at what 
the state-of-the-art mental health counseling and therapy exist 
out there and start to incorporate those for our veterans. And 
I think it will be helpful.
    Mr. Takano. Yes. With all respect to the medical 
background, and I don't want to diminish any--we don't want to 
diminish the role of medication or therapy, but thinking of 
also the nonmedical ways of also treating folks even with the 
existing budgets or even a tiny bit of leverage from Federal 
Government to try these other--so I was hoping that you would 
look at representing on the commission folks within the 
humanities and the arts as well.
    Mr. Coffman. Mr. Chairman.
    Mr. Benishek. Yes.
    Mr. Coffman. Mr. Bilirakis, one thing I would like the--my 
concern as a combat veteran is that the largest cost driver I 
think probably in VA healthcare is posttraumatic stress 
disorder in terms of disability payments.
    In talking to professionals in psychiatry and psychology 
and the different therapists seem to think that with the proper 
treatment that the stress disorders from being in a combat zone 
could be brought down to a level where it is no--that those 
stressors are no longer debilitating, yet one of the 
considerations I think your commission should look at is should 
there be a requirement or what can we do to encourage those who 
are on disability for posttraumatic stress disorder to receive 
treatment because I think it is a disservice to those veterans 
and it is, quite frankly, as a taxpayer, it is a disservice to 
the taxpayers of this country.
    We have got to figure out how to help people. We have got 
two different definitions. The Department of Defense sees 
posttraumatic stress as a wound and the Veterans Administration 
sees it as a disability. I think we have got to link those two 
up. As a combat veteran, I see it as a wound and wounds are 
treatable. Some may not be.
    But the system makes no effort or little effort and so I 
think that it ought to be a factor to say what can we do to 
restructure the system going forward, or does it need to be 
restructured going forward, I don't know, that creates a 
mechanism whereby people are encouraged or required to 
participate in treatment.
    Mr. Bilirakis. That is definitely worthy of a discussion. 
And, again, the idea behind this bill is we need to give the 
veteran the choice because not one size fits all with regard to 
the therapy. So I will take all these matters under 
consideration, but we got to pass the bill first. Thank you.
    Mr. Benishek. Mr. Ruiz, Do you have a comment?
    Mr. Ruiz. Yeah. I would like to make a statement regarding 
this bill and applaud Mr. Bilirakis for the work that you are 
doing for our veterans in improving their mental health 
services.
    So I would like to thank Mr. Chairman and Ms. Ranking 
Member and thank also the panelists that we are going to hear 
from today, the veteran service organizations for joining us. 
The VA's mission is to care for those that, quote, ``shall have 
borne the battle.'' And the most essential part of that task is 
to heal our wounded warriors, our wounded veterans. However, 
more and more our soldiers are returning with psychological 
wounds, illnesses that do not present as obviously as physical 
maladies but are just as damaging.
    That is why I am an original cosponsor of H.R. 271, the 
COVER Act, which I am glad to see included in today's hearing. 
This bill will ensure that no stone is left unturned in 
exploring ways to provide timely, effective, veteran-centered 
mental healthcare for those who have served in our Armed 
Forces.
    I am proud to have worked with outstanding veteran service 
organizations and the veterans in my district to ensure that 
the VA listens to the foremost experts on what veterans need, 
the veterans themselves.
    In that same spirit, this bill will help give veterans a 
voice in their treatment by requiring a comprehensive survey of 
veterans' experiences and preferences. To achieve real progress 
towards improving mental healthcare in the VA, we must 
incorporate veterans' recommendations.
    As a physician who has treated the whole range of patients 
that come into the emergency department, I know that one-size-
fits-all approach doesn't work for veterans with mental health 
needs. This bill will help give our veterans mental healthcare 
options that work for them and will lay the groundwork for 
future solutions that are the product of listening to our 
veteran community.
    I look forward to working with Vice Chairman Bilirakis and 
other members of this committee to create an inclusive process 
where veterans' voices and views are heard and I urge my 
colleagues to support this bill.
    Thank you and I yield back.
    Mr. Benishek. All right. Thanks.
    Does anyone else have any questions or comments?
    Mr. Roe. Just very briefly I guess to just second what two 
of my colleagues have said.
    One, Mr. Coffman, I think you are absolutely right on. We 
should stop calling this posttraumatic stress disorder and 
posttraumatic stress and look at how we heal these veterans and 
get them back into the workforce and have productive lives, not 
to say that I have this condition.
    If you have been in war, I have said this many times here, 
and somebody shoots at you, that is going to make you anxious. 
There would be something wrong with you if you didn't. And you 
are going to--I mean, I would think there would be something 
really wrong if you didn't get scared if somebody shot at you.
    And I think the goal ought to be with the commission is how 
do we, and I think this is a, Mr. Bilirakis, a tremendous idea 
that you all have come up with, to finally get in one arena a 
group of people, experts to put together some ideas about how 
we do what you are saying, about how we get these folks who are 
on disability, get them back in the workforce and get them back 
at productive lives. I think that is something we absolutely 
have to do.
    And, Mr. Takano, I could not agree more with you in 
including some alternative things like the arts, music. I can 
tell you it is very beneficial for people and can be very 
healing to people. And having used that myself, I know it 
works. And so I think it is a phenomenal idea.
    I am very supportive and I think we need to expand, Mr. 
Bilirakis, what you are doing and with all these ideas that 
have come in. I think this it is a wonderful idea.
    And with that, I yield back.
    Mr. Benishek. Great. Okay. Ms. Kuster, Do you have a 
question as well?
    Ms. Kuster. Just a quick comment. I wanted to thank you, 
the chair. I have been an adoption attorney for 25 years and 
worked with a lot of people in the area of reproductive health 
and just wanted to say I support the effort in your bill. And I 
think it is an important point.
    And then I think Representative Walorski is gone, but I 
just wanted to thank her for her efforts and also 
Representative Hahn, the bill about women and her homelessness 
issue, about domestic violence and women trying to seek shelter 
and safety.
    So I just want to commend the chair and the panel for some 
great legislation and look forward to working with you all.
    Mr. Benishek. Well, thanks.
    Ms. Kuster. Thank you.
    Mr. Benishek. Appreciate that.
    Mr. Miller has arrived, so he wants to present his 
legislation as well. Mr. Miller, you are recognized.
    Mr. Miller. Thank you very much, Mr. Chairman, to the 
ranking member. And I apologize for being late this morning, 
but it is always good to be in the Subcommittee on Health. I 
appreciate all the members' attention and your diligence at the 
full committee level and certainly with what is going on here 
today.
    I want to talk with you about issues as it relates to 
reproductive treatment that is provided to certain disabled 
veterans. Now, currently the conflicts in Iraq and Afghanistan 
over the last decade have resulted in significant increases in 
reproductive organ and spinal cord injuries among our 
servicemembers. These wounds can have serious and life-long 
repercussions on the daily lives of our veterans and their 
families, not the least of which can be the inability to 
conceive a child.
    While the Department of Veterans Affairs does provide a 
number of fertility services to veterans, VA is currently 
prohibited via regulation from providing in vitro 
fertilization, one of the most well-known and arguably most 
effective assisted reproductive technologies. The VA is 
prohibited also by statute from providing any such treatment to 
a veteran's spouse.
    In contrast, the Department of Defense has been providing 
IVF to severely-wounded servicemembers since 2010. What this 
disparity results in is having severely-disabled veterans 
having to decide whether or not to pursue a family through IVF 
before they separate from the service while still actively 
recovering from their wounds and during what can be a highly 
stressful transition period or pay for the procedure out of 
pocket once they move to veteran status.
    Because IVF can be costly, for some veterans waiting until 
they are in VA care can mean having to choose between a 
financial free-fall or foregoing their dreams of having a child 
altogether. This is an agonizing and unacceptable choice that 
this draft bill would help prevent veterans with these 
disabilities from ever having to make.
    The draft bill would authorize VA to provide assisted 
reproductive technology in addition to any fertility treatment 
already authorized to enroll veterans whose service-connected 
disability includes an injury to the reproductive organs or 
spinal cord that directly results in the inability to procreate 
without the use of assisted reproductive technology.
    Assisted reproductive technology is defined in the bill to 
include IVF as well as other technologies determined by VA as 
appropriate to be used to assist reproduction. In furnishing 
IVF or similar procedures to an eligible veteran, VA would also 
be authorized to provide services to that veteran's spouse. 
Like DoD, VA would be limited to providing eligible veterans 
three in vitro fertilization cycles resulting in a total of not 
more than six implantation events.
    The draft bill would further stipulate that VA is 
authorized to provide for storage of genetic material for three 
years after which the veteran and his or her spouse is 
responsible for the cost of such storage, that VA cannot 
process or make any determinations regarding the disposition of 
genetic material, and that VA is required to carry out 
activities relating to the custody or disposition of genetic 
material in accordance with the relevant state law.
    Finally, the draft bill would prohibit VA from providing 
any benefits relating to surrogacy or third-party genetic 
material donation. So in short, this legislation mirrors the 
IVF benefit that is provided to active-duty servicemembers in 
DoD, creating parity between the two departments while opening 
the door for parenthood for disabled veterans who may otherwise 
not have the resources to pursue such a path.
    And I am proud to say that this proposal is supported many 
of our VSOs, by resolve the National Infertility Association 
and by the American Society for Reproductive Medicine. And I 
want to thank all of them for their support, for this draft, 
and for their thoughtful comments and recommendations for how 
it could be improved.
    I look forward to working hand in hand with each of you 
subcommittee members to address those suggestions and otherwise 
strengthen the language in the draft bill before it is 
introduced and moved forward. This draft is derived partly from 
the recent subcommittee roundtable wherein fertility among 
disabled veterans was discussed in depth. And I am grateful to 
you, Dan, for holding the roundtable as well as this hearing 
today. And I urge my colleagues support this draft bill and I 
yield back. Thank you for your time.
    Mr. Benishek. Thank you very much, Mr. Chairman.
    Any other comments for the chairman?
    Mr. Roe.
    Mr. Roe. Just very briefly some history. In vitro 
fertilization came along in my career as an obstetrician/
gynecologist. Dr. Patrick Steptoe in England did a hundred 
laparoscopic in vitro implantations before he had one success. 
Egg gatherings, he did a hundred. It is now standard medical 
therapy.
    And I wholeheartedly support this legislation. It is past 
due. We should do this for our very, very seriously-wounded 
veterans who want to have families. I can't think of anything 
more honorable to do than this.
    I yield back.
    Mr. Benishek. Thank you.
    I think with that, we will ask the second panel to take the 
stage here. Joining us on the second panel is Blake Ortner, the 
Deputy Government Relations Director for the Paralyzed Veterans 
of America; Louis Celli, Jr., the Director of the National 
Veterans Affairs and Rehabilitation Division for The American 
Legion; John Rowan, the National President of the Vietnam 
Veterans of America; and Adrian Atizado, the Assistant National 
Legislative Director for the Disabled American Veterans.
    Thank you all for being here and for your hard work and 
advocacy on behalf of our veterans. I appreciate you being here 
to present your views of your members.
    And I think we will begin with Mr. Ortner. Mr. Ortner, you 
are recognized for five minutes.

    STATEMENTS OF BLAKE ORTNER, DEPUTY GOVERNMENT RELATIONS 
  DIRECTOR, PARALYZED VETERAN OF AMERICA; LOUIS J. CELLI JR., 
    DIRECTOR, NATIONAL VETERANS AFFAIRS AND REHABILITATION 
DIVISION, THE AMERICAN LEGION; JOHN ROWAN, NATIONAL PRESIDENT, 
VIETNAM VETERANS OF AMERICA; ADRIAN ATIZADO, ASSISTANT NATIONAL 
        LEGISLATIVE DIRECTOR, DISABLED AMERICAN VETERANS

                   STATEMENT OF BLAKE ORTNER

    Mr. Ortner. Chairman Benishek, Ranking Member Brownley, and 
members of the subcommittee, Paralyzed Veterans of America 
would like to thank you for the opportunity to present our 
views on legislation before the subcommittee.
    PVA supports the draft legislation to provide assisted 
reproductive technology or ART such as in vitro fertilization 
to certain disabled veterans. For many disabled veterans, one 
of the most devastating results of spinal cord injury or 
dysfunction is the loss of or compromised ability to have a 
child.
    While the Department of Defense does provide ART to 
servicemembers and retired servicemembers, VA does not. When a 
veteran has a loss of reproductive ability due to a service-
connected injury, they must bear the total cost for any medical 
services should they attempt to have children. Procreative 
services provided through VA would ensure that disabled 
veterans are able to have a full quality of life that would 
otherwise be denied them due to their service.
    The bill also offers veterans the option of 
cryopreservation of genetic material for three years to protect 
their viability to have a family in the event medical 
treatments or medications affect the quality of their genetic 
materials.
    While PVA strongly supports this draft legislation, it is 
limited in addressing the needs of women veterans. Some women 
veterans with a catastrophic injury may be able to conceive 
through IVF but be unable to carry a pregnancy to term due to 
their disability. In such an instance, implantation of a 
surrogate may be their only option.
    The current draft of the bill is not inclusive of all women 
veterans with a catastrophic reproductive injury and we believe 
clarification is necessary where the draft prohibits any 
benefits relating to surrogacy or third-party genetic material 
donation.
    PVA generally supports draft legislation to require a 
yearly evaluation of overall effectiveness of the Veterans 
Health Administration in improving access to care and the 
quality of it. In order to improve this bill, PVA strongly 
encourages adding language to reinstate the reporting 
requirement that expired in 2008 on the capacity of VHA to 
provide specialized services to disabled veterans.
    The VA has not maintained its capacity to provide for the 
unique healthcare needs of severely-disabled veterans, veterans 
with spinal cord injury or disease, blindness, amputations, and 
mental illness.
    Currently within the SCI system of care, VA not meeting 
capacity requirements for staffing or number of inpatient beds 
is consistently reported throughout the system. VA has 
eliminated staffing positions or operated with vacant 
healthcare positions for prolonged periods of time. When this 
occurs, veterans' access to VA decreases, remaining staff 
become overwhelmed with increased responsibilities, and the 
overall quality of healthcare is compromised.
    As a component of its workplace planning, VA tracks this 
information and is able to compile and use the collected data 
for annual reports, so this should not be an undue burden.
    PVA understands the intent of and generally supports the 
Toxic Exposure Research Act of 2015. However, the bill does not 
discuss the processes should the advisory board conflict with 
the findings of IOM. We encourage the subcommittee and VA to 
work together to ensure legislation fulfills the IOM Committee 
recommendations.
    PVA supports H.R. 271, the Creating Options for Veterans 
Expedited Recovery Act. PVA believes that effective medical 
care, traditional or alternative, ought to be readily available 
to a veteran in need and that all VA mental healthcare should 
meet the specific individual need of the veteran on a 
consistent basis.
    Complementary and alternative medicines give veterans with 
mental illness as well as catastrophic disabilities additional 
treatment options and the commission could offer an opportunity 
to identify additional best practices across medical 
disciplines.
    PVA supports H.R. 627 to expand the VA's definition of 
homeless to match the definition used by the Department of 
Housing and Urban Development since 1987. Domestic violence is 
just as much a public health matter as homelessness and for 
women veterans, it is a major cause. Thirty-nine percent of 
women veterans report experiencing domestic violence, well 
above the national average.
    As a result of definitions outlined in Title 38, these 
veterans are not eligible to access resources for homeless 
veterans.
    PVA generally supports H.R. 1369, the Veterans Access to 
Extended Care Act of 2015, which would allow veterans to obtain 
non-VA long-term services and supports from local providers. 
The bill would also allow LTSS providers to enter the VA 
provider agreement rather than contracting with VA, thereby 
avoiding the complex processes required under the Service 
Contract Act.
    Finally, PVA supports H.R. 1575, a bill to make permanent 
the pilot program on counseling in retreat settings for women 
veterans newly separated from service in the Armed Forces. The 
bill would provide VA with the authority to extend the program 
using the same measurements and eligibility requirements. It is 
essential that Congress reauthorize this program as we believe 
the value and efficacy is undeniable.
    Mr. Chairman, PVA thanks the subcommittee for the 
opportunity to submit our views and I would be happy to answer 
any questions.

    [The prepared statement of Blake Ortner appears in the 
Appendix]

    Mr. Benishek. Thank you very much for your testimony, Mr. 
Ortner.
    Mr. Celli, you may begin your statement, five minutes.

                STATEMENT OF LOUIS J. CELLI, JR.

    Mr. Celli. I can't remember a hearing in recent history 
where The American Legion completely supported and stood behind 
every bill being offered for consideration. What this 
demonstrates is an overwhelming bipartisan partnership with 
veteran service organizations and with veterans to ensure the 
Congress gets it right.
    On behalf of our National Commander Mike Helm and the 
millions of veterans that make up The American Legion, thank 
you. Good job.
    The World Health Organization defines reproductive health 
as a state of complete physical, mental, and social well-being 
at all ages and stages of life and not merely the absence of 
reproductive disease or infirmity. According to a study of 
veterans who served during OIF and OEF, 15 percent of women and 
nearly 14 percent of men reported that they had experienced 
infertility.
    As a result of more than a decade of war, thousands of male 
and female servicemembers are returning home with physical and/
or psychological wounds resulting in a variety of fertility and 
reproductive health issues. Many young servicemembers have been 
documented with low testosterone levels that can be attributed 
to the medications that they take for their physical injuries 
or conditions such as TBI or PTSD. That is why The American 
Legion supports the draft bill to amend Title 38 to improve the 
reproductive treatments provided to certain disabled veterans.
    The American Legion has always been a vocal advocate of 
transparency and open communication between the American people 
and government. Last December, CBO suggested that an annual 
report similar to the one that DoD produces relative to TRICARE 
would help policymakers evaluate cost efficiencies. And The 
American Legion agrees.
    Additional data, particularly if it was provided on a 
regular basis, could help inform policymakers about the 
efficiencies and cost effectiveness of VHA services. The 
American Legion through testimony and resolution has 
consistently called upon VA to maintain transparency in all 
aspects of data reporting.
    This is why we not only support this draft legislation, but 
we also continue to support H.R. 216 introduced by Ranking 
Member Brown, the Department of Veterans Affairs' Budget and 
Planning Reform Act.
    Last month, The American Legion commander sent a team of 
six experts to Los Angeles to work with veterans and learn more 
about the West Los Angeles land usage agreement. While in LA, 
we reached out to and worked directly with homeless veterans so 
that we could get a firsthand sense of the homelessness problem 
in Los Angeles.
    What we discovered was that while expanding the definition 
of what it means to be a homeless veteran as 627 seeks to do 
and is something we support, we also realize that there is a 
large number of homeless veterans that do not qualify for VA 
services and who are completely overlooked in the 
administration's goal to eradicate veteran homelessness this 
year.
    Veterans who have less than honorable discharges due to 
struggles with PTSD or other service-connected issues are not 
eligible for HVRP or other VA services. The American Legion 
calls on VA and this committee to address this issue and work 
with VA to ensure these veterans are properly served.
    And finally, in September 2013, The American Legion 
published our report, The War Within. This report was a result 
of comprehensive research conducted by our PTSD/TBI Ad Hoc 
Committee which found that, one, VA and DoD have no well-
defined approach toward the treatment of TBI; two, providers 
are merely treating the symptoms; and, three, DoD and VA 
research studies are weak in the area of new non-
pharmacological treatments and therapies such as virtual 
reality therapy, hyperbaric oxygen treatment, and other 
complementary and alternative medicine therapies.
    In February of last year, The American Legion conducted a 
TBI and PTSD veteran survey to evaluate the efficacy of VA's 
TBI and PTSD medical care and to see how veterans who are 
suffering from these signature wounds are being treated. The 
survey showed that 59 percent reported either feeling no 
improvements or feeling worse after undergoing treatments for 
their TBI and PTSD symptoms. Thirty-three percent have 
terminated their treatments and therapies prior to completing 
them. And the veterans we surveyed reported that they were 
taking up to ten different medications for PTSD and TBI 
symptoms.
    In June 2014, The American Legion along with military.com 
sponsored a TBI and PTSD symposium and again focusing on 
complementary and alternative therapies. More information about 
this symposium can be found in my written testimony.
    In closing, The American Legion strongly supports the use 
of complementary and alternative medicines and supports the 
funding necessary to assist veterans suffering with PTSD and 
TBI with complementary, non-pharmacological treatments that 
allow our returning veterans to actively participate in their 
own recovery programs without unnecessary sedation or over-
medication.
    Thank you.

    [The prepared statement of Louis J. Celli, Jr. appears in 
the Appendix]

    Mr. Benishek. Thank you very much for your comments, Mr. 
Celli.
    Mr. Rowan, you can proceed with your testimony.

                    STATEMENT OF JOHN ROWAN

    Mr. Rowan. Chairman Benishek and Ranking Member Brownley, 
excuse my voice. I have been dealing with a cold for the last 
week. The change in weather is just driving me crazy.
    We, too, support all of the proposed legislation before us 
this morning. The reproductive treatment issue is certainly one 
we are concerned about. One of the problems that we saw with 
the Agent Orange issue was the fact that a lot of veterans 
because of exposure to Agent Orange had reproductive rights 
issues, that they had terrible problems.
    When we had our town hall meetings on Agent Orange, there 
was a lot of complaints by the wives of miscarriages and 
stillborns. And so any effort at all to work in that area is a 
blessing.
    The annual report on VHA, I don't understand why that 
hasn't always been done, quite frankly, and it is just another 
area that we have been supporting for a long time which is as 
much congressional oversight as possible is a good thing. And 
the more information that you have to make your oversight 
worthwhile will certainly work in that direction.
    We support Representative Bilirakis's COVER Act. It is an 
interesting area for us. One of the things we always complained 
about years ago when the Vietnam veterans came home, frankly, 
was the over-medication of Vietnam veterans, way too much 
Thorazine and not enough treatment, and led to all kinds of 
problems, not the least of which was some serious issues that 
ended up with people being put away in jail for a long time.
    So the only caveat we might add, we thank the congressman 
for adding the issue on the membership, but we would also ask 
that any review may ensure that any alternative treatment have 
a real scientific evidence background.
    Unfortunately, I hate to say it, but there is a lot of 
people running around saying they have got a cure for PTSD. And 
while they may have some reasonable alternative medicine or 
alternative process, some of these things get a little 
overblown and, unfortunately, can become real scams. So we 
appreciate the effort, though, and I think this commission can 
go a long way on that.
    Expanding the definition of homeless, that is an issue, you 
know, not surprising. We need to do more on that issue. There 
was even a problem out in Long Island where we got homeless 
veterans a place to live and because they had a place to live, 
they couldn't get funding because now they had a place to live 
even though the place was a homeless program. I mean, the VA 
didn't make sense. They didn't want to fund it. Finally they 
did, thank God, and I think Congressman Zeldin, one of your 
colleagues, had a lot to do with that.
    So I have been working on homeless veterans since 1981 when 
they were first discovered in the City of New York. And we 
applaud the efforts in LA County and we really applaud the 
efforts of the VA in West LA. They really are starting to make 
some changes out there. And I am sure Congresswoman Hahn will 
be pleased to see that.
    We support the other programs, the women's treatment 
program and the retreat sounds extremely interesting. And the 
expansion of extended care, of course, is something near and 
dear to us. Unfortunately, many of my members are becoming 
older obviously and need more of that assistance.
    But the main bill we are here for is 1769. We believe this 
may be the most important bill for veterans since the Agent 
Orange Act of 1991. And the key to this is the fact that we 
would begin to finally look at what happens to toxic exposure 
not only to the veterans but to veterans' families because 
interestingly enough, if you look at what the VA has already 
agreed to, male veterans only get children with spina bifida. 
Female veterans have a much longer list of diseases that affect 
their children that has been agreed to by the VA often, again, 
with reproductive issues being the forefront.
    So our firm belief that this is so important and having 
gone out again, we have had over 200 town halls across the 
country and it has really been discouraging about what we have 
been hearing from the veterans. But the key aspect of this act 
is the multi-generational issue. So we not only talk about 
Vietnam veterans and the effects of Agent Orange, but we talk 
about the effects of all the folks that went to the Persian 
Gulf in 1991 and we talk about all the folks who have been in 
and out of Iraq and Afghanistan to this day.
    We are already getting concerns about some of the folks 
coming home and some of the effects on their children. So we 
really, really look forward and we thank you all for the 
support for this act. Thank you.

    [The prepared statement of John Rowan appears in the 
Appendix]

    Mr. Benishek. Thank you for your comments, Mr. Rowan.
    Mr. Atizado, please proceed with your testimony.

                  STATEMENT OF ADRIAN ATIZADO

    Mr. Atizado. Thank you, Mr. Chairman, members of the 
subcommittee. I want to thank everybody here for inviting the 
DAV to testify at this legislative hearing.
    As many of you know, DAV is a 1.2 million service-disabled 
veteran service organization and our mission is to empower 
veterans to live high-quality lives with respect and dignity. 
Many of these bills aim to do just that.
    We are pleased to present our views on the bills under 
consideration, but for the sake of brevity, I will only talk 
about three bills and refer the subcommittee to our written 
testimony for our position and comments on the others.
    First, DAV supports the intent of H.R. 271, the COVER Act. 
As has been discussed here before, this is a bill that would 
allow for complementary, alternative medicines to grow in the 
VA healthcare system. Our resolution from our members calls for 
access to a complete continuum of services for complementary 
and alternative medicine.
    As part of the Independent Budget, we have long supported 
the advent of the availability of these therapies in the VA 
healthcare system for all generations of wounded, ill, and 
injured veterans, although we do call the subcommittee's 
attention to the bill's language that may need just a little 
bit of clarification as to whether the commission that would be 
established by the bill is expected to study Veterans Benefits 
Administration claims with regards to mental health disability 
or whether the claims the bill language uses should be replaced 
by maybe a more clinically differentiated expression.
    The second bill is H.R. 1369 which DAV really does thank 
Representatives Walorski and Gabbard for introducing. It is a 
necessary bill. The bill would actually help to address adverse 
effects that many veterans are feeling right now in the 
community.
    A lot of service-connected disabled veterans who are in 
nursing homes and skilled nursing facilities are facing very 
precarious situations where they are not sure who is going to 
be able to pay for their care because VA is having a little bit 
of difficulty trying to address their provider agreement 
authority.
    Now, this bill is in line with our resolution and our 
resolution talks about enhancing long-term services and 
supports for our members. Our members like with the Vietnam 
veteran generation and the newest generation are facing 
services that need to be provided closer to their home and that 
is one of the weaknesses in the bill that we ask that the 
committee consider.
    Some of these services deal with a specific VA program that 
is just beginning to expand and because there are problems with 
VA's authority to implement its provider agreement with private 
sector providers, that program is being adversely affected.
    Finally, we would like to thank the subcommittee for its 
continued efforts in improving VA's women veterans' healthcare 
programs and services. We are pleased, definitely pleased to 
support H.R. 1575.
    Now, Congress mandated VA to assess the pilot program which 
is the subject of this bill and in that assessment, the results 
describe it as a successful program that improves the ability 
for women veterans to reintegrate into civilian life.
    Making permanent VA's pilot program for counseling 
treatments for newly-separated women veterans is keeping with 
our resolution which calls for enhanced medical services and 
benefits for women veterans.
    Equally important is the bill would fulfill a key 
recommendation to Congress in DAV's report, Women Veterans' 
Long Journey Home. This report reveals that America's nearly 
400,000 women veterans using VA are at risk by a system 
historically focused on caring for male veterans.
    The report paints a compelling picture of federal agencies 
and community service providers that consistently fail to 
understand that women are impacted differently by military 
service and deployment when compared to male experiences.
    It also points to challenges that are needed in overall 
culture and services provided by Federal Government and local 
communities and it lists 27 specific recommendations.
    Mr. Chairman, this concludes my statement. I would be 
pleased to answer any questions you or other members of the 
subcommittee may have.

    [The prepared statement of Adrian Atizado appears in the 
Appendix]

    Mr. Benishek. Thank you very much for your testimony, Mr. 
Atizado.
    We have just called for votes, so I was going to ask my 
questions and then maybe let the ranking member ask and then we 
will reconvene after votes to conclude. Sorry about the delay 
here, but they moved votes up apparently.
    So I just have a few questions. I want to talk just a 
minute about the legislation I talked about, to get this annual 
report. I am trying to figure out what data to get, and I want 
to try to be able to determine what is the cost of the care 
that we are providing our veterans through the VA? You know, we 
don't know; they are spending a billion dollars on a hospital 
here, a billion dollars on a hospital there, and what does it 
actually cost them to take care of a patient coming through the 
door? And I want to find that out because I think we need to, 
give our veterans maybe more for the money that we are spending 
in the VA.
    So, Mr. Rowan, do you have any further information that you 
want to present, because you did comment on the bill?
    Mr. Rowan. Yeah, I think that the issue is where our 
spending is. I mean one of the things that we have had concerns 
about has been this massive growth of bureaucracy, you know, 
with the VISNs and other things, rather than the money being 
spent on care providers. You know, how much are we actually 
spending on doctors, rather than managers? How much are we 
spending on nurses, rather than managers?
    And that would be an interesting breakdown to see how that 
works in the actual provision of services. I mean if we just--
if we take the overall budget and just whack it up by the 
number of veterans, you get a number, but that doesn't give you 
an idea of what it is being spent on, and that has really been 
our concern for a long time.
    Mr. Benishek. Well, it is my concern, too, because I mean 
if you take the whole budget and the number of veterans that 
are in the system and you come up with a thousands-of-dollars-
per-veteran number.
    Mr. Rowan. Right.
    Mr. Benishek. But you can't figure out what it actually 
costs.
    Does anyone else have any comment on that?
    Mr. Atizado. Mr. Chairman, if I remember correctly, CBO's 
report and their testimony, that you have referred to in your 
statement when we reviewed that, it was very easy to come to 
the realization that what you are trying to do is compare one 
health testimony to another, and in CBO's report they basically 
say it is nearly impossible.
    Now, even if VA were to provide a report like DoD does for 
TRICARE, CBO even says that might not even do it. There may be 
some information that VA would be able to provide that is 
either unavailable or partially available or just nonexistent 
in the private sector. I believe this is an important question 
and it is one that really is at the heart of the subcommittee's 
oversight responsibility. It should be answered, but perhaps it 
should be posed to the research community. Most of the seminal 
studies in CBO's report about comparing costs talk about 
research studies done in the early 1980s, 1990, as early--as 
late as 2001 and is probably something that should be sent back 
to them for a little bit closer examination.
    Mr. Benishek. I appreciate your input because I am trying 
to get, the right stuff, the right numbers, the right data, so 
that we can, make some changes to the VA to make it better a0nd 
more responsive to the needs of veterans. So I am hoping that 
we can continue to work together to help me find the right 
data.
    Does anyone else have any input there?
    Mr. Celli. I do, thank you.
    And The American Legion agrees that while it may be 
difficult, it is not impossible. And while it may be difficult 
to completely formulate the type of data that we would need in 
order to make informed decisions, that doesn't preclude us from 
starting and gathering some form of data and that has to be a 
partnership with VA. VA has to be open enough to be able to 
provide that data when requested and right now we are not 
seeing that type of transparency when it comes to efficiencies 
of cost.
    We also need to make sure that VA is projecting and 
programming out efficiently so we can look back then, three, 
four, five years from now and say, well, this is what VA said 
that they wanted to do and what they wanted to spend their 
money on and this is what they wanted to do as far as new 
projects goes and be able to look at that and say, well, how 
did that go? And it is okay for it to change, but without a 
plan, then it is almost reckless.
    Mr. Benishek. Thank you. I am going to yield back my time, 
and we will give Ms. Brownley some time here before we run off 
to votes. Thanks.
    Ms. Brownley. Thank you, Mr. Chairman.
    Mr. Rowan, you testified or mentioned the fact that based 
on some data that women were suffering a lot more in terms of 
their reproductive health because of exposure to any kind of 
toxic material. Do we have any hard data on that in terms of 
exposure for women, specifically?
    Mr. Rowan. You know, I don't know if there is exact data, 
but when you look at the presumptive illnesses that VA has 
agreed to, men only have spina bifida where the women have 
several, most associated with their reproductive organs and 
their issues and effects on those, and that is intriguing to 
me, why the women have that problem, but not the men. I mean, 
you know, because there is really a lot of concern about the 
genetic effect of toxic exposure which may lead to all kinds of 
genetic problems carried over into the next generations. So 
that is why we think that it is important that we take a look 
at all of that.
    You know, there were several states that were starting to 
do that many years ago back in the 1970s and 1980s, New York, 
New Jersey, Michigan, I think, started to look at that, but 
then, unfortunately, there was no funding for it and nobody 
wanted to keep up with it. And they were starting to look at 
the data of the children of Vietnam veterans, and they may need 
to go back to try to find some of that, if it still exists or 
take a look at new ones. And we are really concerned not only 
about us, but looking forward.
    Persian Gulf have been out 20 years now, so there should be 
a lot of data on them. And the new folks, we should start 
tracking them now, you know. I always tell the anecdotal story, 
I have a cousin who is, you know, in his early 40s as a Seabee 
Reservist, went to Iraq twice, dealt with all kinds of horrible 
cleanup stuff, dealt with all kinds of exposures. He came home, 
and after his second tour, he got non-Hodgkin's lymphoma and 
his third child was born with downs syndrome. Now, is there a 
connection? I am not a scientist. I can't tell you for sure, 
but somebody ought to study it and that is what we are just 
saying.
    One of the problems we have had with the whole Agent Orange 
issue is for all these years, they have never really done a 
decent study. They have never really done a decent scientific 
review. IOM has been relying on all kinds of extraneous studies 
done around the world to come up with all of these things and 
we have waited all these years. I mean I am going to be 70 in 
September and, you know, it only took three years ago when they 
added ischemic heart condition. I mean I don't want to see that 
happen to the Persian Gulf vets and I certainly don't want to 
see that happen to the new vets, that they have to wait 40 
years to find out that they have problems with their children, 
that they need to take a look at.
    Ms. Brownley. Absolutely. I couldn't agree more with your 
comments.
    I also wanted to just ask the whole panel, based on Ms. 
Brown's bill, H.R. 1575, what are your thoughts--the VA made a 
suggestion, I think, that we should, in terms of expanding the 
population of eligible veterans, that we should also include 
men, as opposed to strictly women. Does anybody have a comment 
with regards to that?
    Mr. Rowan. I will be honest, I am not an expert in this 
field--I never really followed up on it--but that was my first 
reaction when I read the bill and looked at that pilot program 
as, gee, a retreat form. That is not a bad idea, but why do we 
do it just for women? Why not men as well?
    I remember former Chairman Filner when he was here, one of 
the things he talked about was reverse boot camp. You know, the 
idea of we bring people home--we spend all this time and effort 
and money to make people into warriors and then when they come 
back, we don't spend a nickel to make them into civilians 
again; that is an interesting concept.
    Ms. Brownley. Any other comments from----
    Mr. Celli. Yes, I would like to dovetail on what Mr. Rowan 
said. During World War II, after veterans left combat, they had 
a three-or-four-week journey back on a boat to reintegrate with 
their platoons and really decompress. Right now, you can go 
from the battlefield to your living room in 15 days, 10 days, 5 
days in some cases, and veterans really need that time to 
decompress. And I think that is a huge component of some of the 
illnesses that we are seeing now just being exasperated; they 
don't have time to deal with it.
    Ms. Brownley. Do you think that if we included men and 
women, that we should keep them separate, men going together to 
one place and women going together in another?
    Mr. Celli. Congresswoman Brownley, I cannot answer 
definitively whether it should be a separate cohort in each 
retreat. But I do know this, the idea of having a retreat 
specifically for women veterans really came out of the idea 
that they are such a small population compared to the overall 
veteran population, and because they are so small, their 
ability to support each other and have some kind of peer 
support group to learn from each other's experiences became all 
the more important.
    Now, whether that would apply to male veterans with that 
specific respect may not necessarily be the case, but I would 
hope that VA would have some kind of reasoning, other than, 
well, that is another part of the population for male veterans 
to be put in a retreat setting.
    Ms. Brownley. Thank you. I am over my time and I yield 
back.
    Mr. Rowan. If I might add, Congresswoman, the other issue 
here is I would remiss--my vice president would take me to 
task--she ran a program in Philadelphia for women veterans and 
she would be the first one to tell you that unfortunately 
homeless women veterans have a high-rate of military sexual 
trauma and that may be a perfect reason why they need to be 
taken on separately, as from the men, to give them that space 
to be able to deal with those issues that they may not be 
willing to deal with.
    Ms. Brownley. Thank you.
    Mr. Benishek. Gentlemen, I am going to ask your indulgence. 
We are going to have to go into a recess to do the votes, and 
we will reconvene as soon as possible after the votes are over. 
Thank you.
    [Recess.]
    Mr. Benishek. The subcommittee hearing is back in session. 
Since we don't have any other members, I am going to ask a few 
more questions of this panel here, since I have some time, and 
I think Ms. Brownley may have a few more questions, too, and 
see if any other folks show up to ask their questions.
    I was just going into this question of the reproductive 
treatment that we hope to provide for disabled veterans. Some 
of the testimony in the record suggested that, there should be 
included surrogates and third-party donations. I understand the 
reason for those, but the DoD doesn't provide those benefits 
and the VA has expressed some concern in previous hearings, on 
this issue. So I am just wondering how we are going to deal 
with this going forward, and does anyone here have any other 
concerns about the complexities that would be involved with the 
addition of a surrogacy provision in the draft bill. I know, 
Mr. Ortner, you probably have another comment to make on that.
    Mr. Ortner. Yes, Mr. Chairman. You know, the approach of 
PVA has always been to--that the VA and DoD should try and 
bring someone with a disability, especially a catastrophic 
disability, as much of a recovery as they can. Their quality of 
life should be back to as much as normal as it can be. Now, of 
course, you know, in our written testimony, we commented on the 
challenges of the individual's who has got a catastrophic SCI 
where they may have been able to have IVF, but they are not 
going to be able to carry it to term. And the concern we have 
on this situation, is that even though DoD doesn't supply it, 
we think DoD should. Because you have still got a situation of 
an individual that lost the ability to have children due to 
their service and we also see it as being probably a very, very 
small number of individuals that are going to have this 
condition, which is primarily why we, in our testimony, we 
talked about there needs to be a little clarification. Because, 
obviously, it is probably not something you just say, well, we 
are going to open it up and anybody can have a surrogate. But 
we probably think there are those situations where you have got 
those situations where that individual is unable to carry the 
child that should have a consideration.
    Regarding the genetic material, that is another thing, 
third-party genetic material. We think there is probably a very 
unique situation where you are going to have, possibly, you 
know, individuals that are going to suffer from something that 
causes a damage to the genetic material. But as we saw with 
Gulf War syndrome, as we have seen with the various toxic 
substances is that you experience in service, you can have that 
situation. Essentially, what we are doing is because if someone 
serves, they have lost that ability to have children and we 
think they should have that.
    Mr. Benishek. All right. Thank you. Anyone else have 
anything further on that?
    Mr. Rowan. No, I would just concur with what the gentleman 
was saying in that regard. Clearly, the in vitro fertilization 
is one aspect of it, but our concern is going back to the toxic 
exposure issue is the effect of genetic material on exposures. 
But the issue of women, especially who have been hurt in the 
military and the impact on them is interesting. Because, I was 
relating a story, I had a client when I was doing service-prep 
work back in the twos, early twos, who, she had only been in 
the Army like a year and a half and then broke her hip severely 
and they did a mediocre job in putting her back together, quite 
honestly, and she was having some issues with it.
    We got that dealt with, but then when she got pregnant, she 
was very concerned about whether or not she was going to be 
able to carry a baby to term, whether it would affect her--what 
the hip would do, how she would get around. And, unfortunately, 
this was the early days of women's programs inside the VA, but 
we managed to get her help. But it, clearly to me is one of 
those things that the PVA people are well-aware of and we would 
support any effort to assist those folks.
    Mr. Benishek. Well, thank you very much. I will yield back 
the remainder of my time.
    Ms. Brownley, do you have any more questions for the panel?
    Ms. Brownley. Just one quickly. I just wanted to first 
comment that--and to applaud Mr. Bilirakis and Dr. Ruiz and Ms. 
Walorski for their bill on alternative approaches to mental 
health issues. You know, one part of that bill is looking at 
outreach efforts to veterans for mental health services, and in 
my mind, I feel as though that is an extremely, extremely 
important component because, I think particularly for our 
Vietnam veterans and our older veterans, getting them to mental 
health, but getting them to the place where they feel 
comfortable seeking the help is probably 90 percent of the 
issue. And so, you know, how do we encourage and make it feel 
right and say for our veterans to seek that health out. So I 
think that is really, really important.
    I just wanted to ask the panel, and really all of you, you 
know, the VA continues to talk about the work that they have 
been doing and continue to do around alternative therapies for 
mental health. I know we have an extraordinary program in my 
district with equine therapy that has been very successful for 
our veterans. I am just wondering, at this juncture, how would 
you grade the VA in terms of how well they are/we are doing 
with regards to alternative approaches to mental health. Just, 
you know, a quick response, no--it doesn't have to be evidence-
based, just your general reaction to what would you give the--
what grade would you give the VA?
    Mr. Celli. I can tell you that based on the firsthand 
research that The American Legion has done, the grade would not 
be superior. I think there is a lot of work to be done. I think 
that the VA is looking at those options and it is something 
that we are interested in looking at with them, similar to 
things like this bill.
    You know, the VA has come a long way with things like the 
vet centers, which have really taken this issue head-on, during 
the time of Vietnam, when Vietnam veterans were coming back. 
They have vocational rehabilitation, which has almost an 
endless supply of resources to help veterans rehabilitate back 
into society. Maybe they could look at some kind of mental 
health center that is unique to PTSD. You know, maybe if there 
was a specific PTSD program that charged these centers with 
looking at alternative therapies, trying to get them off 
medications and graded them based on success rates, maybe there 
would be some more out-of-the-box type of thinking.
    Ms. Brownley. Do you still believe that outreach is a 
critical component to----
    Mr. Celli. Absolutely. Ninety percent of the veterans that 
we spoke to did not know what their options were. And we need 
to make sure that stakeholders, Congress, VA, the American 
public in general, knows that--or is able to communicate to 
veterans and participate in that outreach to let them know what 
their options are. And, again, vet centers is a wonderful tool 
to help do that; it is probably the best kept secret in VA.
    Mr. Rowan. Clearly, the vet centers, we helped establish 
those things, and I remember back in the Reagan years, trying 
to fight back the OMB from killing them. Thankfully we 
succeeded, but the problem we always had with them is they only 
focused on the veteran. They didn't do enough to bring the 
family into the picture.
    I must tell you that my colleagues in Australia--I have 
been doing family counseling with the veterans for 35 years--
and that would help a lot if that was added, so that they would 
be able to work with spouses, children, whatever; the whole 
secondary PTSD issue is a big issue.
    As far as outreach, the VA has got a very bad mark. I would 
give it an F. I don't think they do anywhere near enough of 
outreach.
    And, frankly, all the alternative stuff is done by private-
sector organizations, and the one thing about--hopefully with 
Bilirakis' proposal with this commission is that they would 
review all of those things and really try to understand what 
are really scientifically attainable and what are not, and what 
are just figments of people's imagination. I mean, don't get me 
wrong, I love my dog and, you know, if I hang out with my 
golden retriever, he has a lot of fun and he can certainly 
lower my anxiety levels, but the bottom line is that without a 
treatment program on top of that, it is not enough. So 
complementary is the keyword there and alternative, not instead 
of.
    Ms. Brownley. Yes. Any other comments from any other 
panelists?
    Mr. Ortner. Well, we have only got a couple of seconds, but 
I think the biggest challenges with the VA--I kind of go a 
little more with the Legion. I would give them maybe a C. But I 
think it is--I think part of the challenge with the VA is it is 
a huge bureaucracy; bureaucracies are resistant to change. And 
I think in the case of the VA, they are more concerned about 
having an embarrassment from a fraudulent program than they are 
necessarily helping every veteran.
    And that sounds negative, but I don't mean it in that way. 
It is just like Mr. Rowan mentioned, which I worked on back in 
the 1990s, a lot of fraudulent things going on and quack 
medicine. There is reason to be resistant, but I think that is 
one of the challenges with the alternative things.
    As for outreach, that is absolutely critical. I worked 
homeless issues back in the mid-1990s, and the outreach was 
key, but it really wasn't the VA doing the outreach; it was the 
homeless centers and things like that, that were doing the 
outreach, funded by the VA. But a lot of that has to do with 
mental illness, getting out there and interacting with those 
people, and that can be challenging because there is a lot of 
fear going into those environments to deal with that.
    Ms. Brownley. Thank you for watching the clock for me. I 
yield back.
    Mr. Benishek. Thanks. Ms. Titus, you are recognized for 
five minutes.
    Ms. Titus. Well, thank you, Mr. Chairman. And thank you and 
the ranking member for allowing me to sit in today.
    I want to agree with the ranking member, Ms. Brownley's 
comments, that we need to expand this legislation. I hope that 
we can work together to be sure these treatment options are 
available for all our veterans. As it is currently written, it 
is possible that there are veterans who meet all the 
requirements contained in this draft legislation, such as 
having a service-connected disability that prohibits 
procreation, but due to their sexual orientation, they won't be 
able to receive this assistance.
    Now, I would like to ask the members of the panel if they 
have any concerns that this legislation fails to offer services 
to legally married same-sex couples. Mr. Ortner, you mentioned 
some exceptions that might be needed to be considered. You 
mentioned surrogacy and third-party genetic donations, but what 
about same-sex couples, if they are denied these benefits as 
veterans, is that really fair? So I would ask you all to 
comment on that.
    Mr. Ortner. Well, Ms. Titus, PVA does not have a position 
on that, and I am not in a position to comment due to that.
    Mr. Benishek. Who wants to jump in? Okay.
    Mr. Rowan. The bottom line for us has been when we have 
dealt with gay rights issues, quite frankly, is if the law 
allows it, we are in favor of it. I mean it started when they 
finally allowed people to come into the military openly gay.
    Ms. Titus. Yes.
    Mr. Rowan. I mean if you are going to let them in, they are 
a veteran when they come out. So if they are a gay veteran, 
they are a gay veteran. I mean I think that there is a lot of 
adjustment society is going to be making over the next decade 
or so on these issues.
    We got involved when we talked about the spousal benefits 
questions and that got interesting real fast. And, you know, 
obviously, some people have very strong opinions on that and 
they are not going to be in favor of it, but our feeling was 
just simple: if it is the law, then it is the law and it ought 
to cover every veteran, not one or--some veterans yes, some 
veterans, no.
    Ms. Titus. Okay.
    Mr. Celli. The American Legion has a similar view. We have 
a resolution that states that there should be equality amongst 
all veterans and all generations of veterans. So if they are a 
veteran and they apply for VA services, they should be entitled 
to the same VA services as any other veteran.
    Ms. Titus. I am glad to hear you say that.
    Mr. Atizado. Thank you, Congresswoman Titus. I will tell 
you this, the mission of the DAV is very clear. What we are 
about is making sure that any service injury that a veteran 
sustains while performing honorable service for this nation, 
should be given the opportunity to be given high-quality life, 
and as I mentioned, to lead it with respect and dignity. So if 
a servicemember happens to have a certain sexual orientation, 
but they are injured and unable to have a--are injured and have 
reproductive difficulties, while we don't have a specific 
resolution on it, based on our mission, we would like to ensure 
that that member have the same and enjoy the same benefits as 
their counterparts.
    Ms. Titus. Well, thank you. That seems to me only fair: A 
veteran is a veteran is a veteran, and all veterans deserve 
equal benefits. Many states now recognize marriage equality and 
it is very likely that the Supreme Court is going to be making 
that decision here this summer, so we want to be sure that we 
don't enact policy that discriminates and doesn't provide 
benefits that all our veterans have earned. So I appreciate 
hearing your comments on that and I yield back.
    Mr. Benishek. Thank you, Ms. Titus.
    In the absence of any further questions, the panel is 
excused. Thank you very much, gentlemen.
    I will now call up the third panel. This is Dr. Rajiv Jain; 
he is the assistant deputy under secretary for health for VA 
Patient Care Services.
    Thank you, Dr. Jain for coming and waiting for awhile as we 
concluded our voting procedures there. You may proceed with 
your testimony when you are ready.

STATEMENT OF RAJIV JAIN, M.D., ASSISTANT DEPUTY UNDER SECRETARY 
     FOR HEALTH FOR PATIENT CARE SERVICES, VETERANS HEALTH 
     ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
ACCOMPANIED BY JANET MURPHY, ACTING DEPUTY UNDER SECRETARY FOR 
     HEALTH FOR OPERATIONS AND MANAGEMENT, VETERANS HEALTH 
   ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; AND 
 JENNIFER GRAY, ATTORNEY, OFFICE OF THE GENERAL COUNSEL, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

                 STATEMENT OF RAJIV JAIN, M.D.

    Dr. Jain. Well, thank you, Mr. Chairman, Ranking Member 
Brownley, and Members of the Committee. Thank you for inviting 
me here today to present our views on several bills that would 
affect the Department of Veterans Affairs programs and 
services.
    Joining me today to my right is Ms. Janet Murphy, acting 
deputy under secretary for health for operations and 
management, and to my left is Ms. Jennifer Gray, attorney in 
the Office of General Counsel.
    I would like to start with Chairman Benishek's bill, to 
amend the Title 38 United States Code to direct the secretary 
of veterans affairs to submit an annual report on furnishing of 
hospital care, medical services, and nursing home care by the 
Department. We support this bill and are already providing much 
of this information on our Web site and through the mandated 
reports to Congress. The costs associated with this and other 
bills on the agenda are included in my written statement, so I 
won't go through them now.
    The VA also supports H.R. 627, a bill to amend Title 38 
that expands the definition of homeless veteran for purposes of 
benefits under the laws administered by the secretary of 
veterans affairs. This will align us with HUD's definition of 
homeless.
    Regarding H.R. 1369, VA appreciates the Committee's 
interests in updating our authority to purchase extended care 
services from the community providers. We are currently 
developing a legislative proposal to address our authority to 
purchase hospital care, medical services, and extended care 
services. We look forward to working with the Committee on this 
vital legislation.
    We support the concept Congressman Miller's draft bill to 
amend Title 38 to improve the reproductive treatment provided 
to certain disabled veterans. We would like to expand the 
language, however, to include all veterans who might be 
eligible.
    VA supports H.R. 271, a bill to exam the efficacy of VA 
treatment of mental disorders and the potential benefits of 
incorporating complementary alternative treatments available in 
non-Department of Veteran Affairs medical facilities within the 
community; however, we have concerns with some of the language 
that may interfere with the stated goals of the bill. We would 
like to work with the Committee to amend the language.
    We support the intent of H.R. 1575, a bill to amend Title 
38 to make permanent the pilot program on counseling and 
retreat settings in women veterans, newly separated from their 
service in the Armed Forces. While VA agrees that providing 
these retreats is beneficial to women veterans, it should be 
made permanent. Other veteran and servicemember cohorts could 
benefit from this treatment modality.
    As discussed in previous hearings, while we support the 
efforts to enhance research on the diagnosis and treatment of 
health conditions of the descendants of veterans exposed to 
toxic substances during service in Armed Forces, we are unable 
to support this bill because a center would duplicate the 
efforts of other federal agencies and other reasons that are 
discussed further in our written testimony.
    Finally, I would like to say to give the VA its best view, 
we have worked in collaboration with many agencies to solidify 
the views provided on many of the bills discussed today.
    Thank you, Mr. Chairman, for the opportunity to testify 
before you today. My colleagues and I would be pleased to 
respond to any questions that you may have.

    [The prepared statement of Rajiv Jain, M.D. appears in the 
Appendix]

    Mr. Benishek. Thank you, Dr. Jain, for coming and for your 
testimony and comment.
    I am going to yield myself five minutes for questions. Dr. 
Jain, the VA opposes this H.R. 1769 on the grounds that other 
federal departments and agencies are poised to support research 
on multi-generational health effects of toxic exposures. The 
VA's research programs have been praised elsewhere in this 
hearing and are, I am sure, more than up to the tasks set forth 
in the bill. What is more, the VA's testimony lists the VA War 
Related Illness and Injury Study Center, the VA Office of 
Research and Development, and the VA Office of Public Health, 
among those whose work would be duplicated, according to the VA 
by the national center proposed in H.R. 1769.
    I have a couple of questions that follow up with that. What 
other departments or agencies do you think are better 
positioned to study the effects of toxic exposure on veterans 
and their descendants than the VA and why?
    Dr. Jain. So, thank you, Mr. Chairman, for that question. I 
think I wanted to, again, make it very clear that we certainly 
support all of the work that needs to be done to find out if 
there are any impacts from the exposure to toxic agents for 
veterans and their descendants. So, in general, we are 
completely in agreement in doing whatever we can do and we must 
do.
    The concern comes into play, sir, if you really look at 
these disorders that happen from exposure to toxic agents, they 
are extremely rare. So you need large populations to really 
come to any meaningful conclusion of the cause and effect. So a 
lot of our experts feel that the exposure in the civilian 
setting and the exposure in the military setting has a lot of 
parallels where we can learn from both sets of exposures. And 
so having, for example, the national center for--the National 
Institute of Environmental Health Sciences or The Center for 
Disease Control that also have significant efforts in looking 
at that, if we could structure a solution that could 
collaborate and partner with those agencies, we could maybe 
have a better chance in achieving scientifically proven impacts 
that I think would----
    Mr. Benishek. I don't think there is anything in the bill 
that excludes.
    Dr. Jain. Right.
    Mr. Benishek. You know, it is a research coordination bill; 
although, I don't think it excludes getting data from anywhere.
    Dr. Jain. It wasn't clear, sir, but I think if the intent 
is that the Center could work with other agencies and could 
begin to have that broader sense, then that could be something 
we can definitely look at.
    Mr. Benishek. Okay. Then let me ask you another question 
here. What does it say about what is going on in the VA War 
Related Illness and Injury Study Center and the VA Office of 
Research and Development and the VA Office of Public Health? I 
mean shouldn't we coordinate all of that in one place to 
explore toxic exposure issues?
    Dr. Jain. That, we would agree with you, sir. The only 
point that we were making is that we have these areas, the war 
related centers, the ORD, all of these departments are 
constantly looking at the published literature. They are trying 
to understand what is going on.
    Mr. Benishek. I understand why you say that, but, you know, 
they also said that focusing solely on military exposures would 
likely result in inconclusive research. Well, a lot of people 
in the civilian life weren't exposed to Agent Orange. Most 
people were exposed in the military setting.
    And it is similar--and it is very difficult--I would say in 
the burn-pit situation, most of the people that were exposed to 
toxic fumes in burn pits, that doesn't seem, to me, a very 
common civilian exposure. Now, there may be other exposures 
that are more common in the civilian life than there are in the 
military; I would say maybe lead exposure would be maybe an 
example of that. But there is lead exposure in the military, 
and maybe that could be coordinated. You know, depleted uranium 
exposure doesn't occur that often. I mean there are lots of 
things that are kind of specific to the military, Dr. Jain, and 
that I think really doesn't--you know, your argument really 
doesn't wash with me, okay. So I think that is not a very good 
reason to be advocating against a legislation, in my opinion.
    Do you have any rebuttal for my comment there?
    Dr. Jain. No, sir. The only thing that I would offer that I 
was going to suggest, sir, is that if we could have an 
opportunity to work with you and the Committee, to work with 
some of this language, so that we can achieve some of the goals 
that we are looking for. That is all we are saying. But we 
agree with what you are saying.
    Mr. Benishek. Yes. Well, I am happy to have you involved in 
the process, Dr. Jain. We just want to make some progress here.
    Dr. Jain. Absolutely.
    Mr. Benishek. In view of time, I am going to ask--I am 
going to ask the ranking member if she has any questions.
    Ms. Brownley. Thank you, Mr. Chair.
    And I will just follow up on your line of questioning 
regarding your bill. Mr. Jain, you have testified that these 
exposures are so rare it is hard for you to come up with a 
scientific response. But what exposures do you define as rare?
    Dr. Jain. Well, I am not talking about the exposure is 
rare, but what I am saying is that the science indicates that 
when you look at diseases or conditions caused by toxic agents, 
those are rare, because you get into play the genetic factors, 
heredity, age, the time of exposure, duration of exposure, the 
type of agents, so there are a lot of agents. So I think my 
only point is that these are rare conditions, so you need 
larger sets of populations. So whatever solution we come up 
with, I think as long as we have access to the largest 
population base that we can think of so that we can get to the 
real bottom of this, I think is all we are saying. So, we are 
supportive of that.
    Ms. Brownley. Yeah. I would just say that I think in this 
case, you know, it is the VA and government in general that I 
think has to take a lead on these issues, and if we don't, who 
will? I think it is just our responsibility, you know, to do 
so.
    So another question I wanted to ask with regards to H.R. 
627 with homelessness, in response to domestic violence in 
veterans' homes, you are saying that you are already serving 
these veterans; it is not so much of a problem, yet you lacked 
the detailed data regarding the size and the characteristics of 
this population. So, can you explain to us how you know that 
you are already serving this population?
    Dr. Jain. So, I think I am going to turn to my colleague, 
Ms. Murphy. She is more familiar with this topic. Janet?
    Ms. Murphy. Thank you, Congresswoman.
    So, we collect a lot of data on the veterans that we serve 
in our homeless programs and, fundamentally, any veteran who 
needs--we don't turn down veterans who need homeless services, 
so we don't distinguish that you are fleeing domestic violence, 
so we can't serve you. So we are already serving those 
veterans.
    How many? We would have to come back--take a look at that 
and come back with that information for you. I think this is 
really a technicality, is correcting the law so it is codified 
in law and consistent with HUD language, the language in HUD's 
regulations, that we are all--because that is our very strong 
partner in all of this. But we are already serving those women 
veterans and men as well, because men also flee from domestic 
violence. So we will continue to do that and we will see if we 
can find information which quantifies that for you.
    Ms. Brownley. So when you say you don't turn anyone down, a 
homeless veteran who needs permanent housing or temporary 
housing, you don't turn anyone down, but there is not enough 
housing for the homeless veteran population, at least in Los 
Angeles County there is not, and I think in my county, in 
Ventura County, it is the same.
    Ms. Murphy. We don't turn anyone down in terms of access to 
services, then the challenge becomes to find them the housing. 
We have plenty of HUD vouchers. We have vouchers available to 
provide them housing. The challenge is finding the housing, 
particularly in areas like Los Angeles, San Francisco, Seattle, 
but, you know, we continue to work the problem.
    Ms. Brownley. And you are also saying that you don't 
collect that data in terms of bifurcating within the homeless 
population of veterans, who of the veterans are--who have--who 
are there because of domestic violence.
    Ms. Murphy. I need to verify that. We collect a lot of data 
on our population that we serve and I would need to clarify 
whether we collect that specific data and whether that was--we 
were able to tease that out and make that available.
    Ms. Brownley. Well, I would appreciate it.
    Ms. Murphy. We certainly should be collecting it, if we are 
not.
    Ms. Brownley. And if you would, get back to me or the 
Committee with that information, I would appreciate it.
    Ms. Murphy. Absolutely.
    Ms. Brownley. I yield back.
    Mr. Benishek. Thank you.
    Ms. Titus, you are recognized.
    Ms. Titus. Thank you, Mr. Chairman.
    Dr. Jain, I would just go back to the point that I was 
making earlier that I worry that Chairman Miller's bill is 
written in such a way that it denies benefits to certain 
veterans. And I appreciated your comment that you would like to 
see it expanded so that you could serve all veterans.
    Do you agree that the legislation, as written now, would 
not offer options to same-sex couples who might need help 
starting a family?
    Dr. Jain. Thank you for that question, Congresswoman. This 
has a lot of legal implications, so I am going to turn to my 
OGC colleague, Jennifer, to address that.
    Ms. Titus. Okay.
    Ms. Gray. Yes, thanks, Congresswoman.
    You have raised some important questions on an important 
issue with this legislation, and we will need to research this 
further, but we are more than happy to discuss the 
applicability of this provision with you at a later date once 
we have looked into it a little bit more.
    Ms. Titus. You needed help to say that, Dr. Jain.
    Dr. Jain. Let me just clarify. I think that there is no 
question that we feel that restoring the physical and mental 
capability of our veterans is a very important mission of the 
VA. And the ability to be a biological parent is very important 
for one's mental and physical well-being and sense of well-
being, so we are very much in support of this concept and I 
think that if the thought is to begin with the most severely 
injured veterans first, we certainly understand that. But at 
some point, we do feel that the who IVF technologies should be 
made available to a broader group of veterans who have medical 
and other reasons for not being able to be a biological parent. 
So I am just stating to you the broader sense that we have, but 
there are some legal issues with that, and that is why I wanted 
to turn to my colleague.
    Ms. Titus. I appreciate that, and I would thank you very 
much if you could get back to me on that so we could work 
together on this to be sure that all our veterans receive the 
benefits that they serve.
    Thank you, I yield back, Mr. Chairman.
    Mr. Benishek. Thank you, Ms. Titus.
    I have just another question I want to ask Dr. Jain, too. 
In the written testimony, Dr. Jain, you stated that the VA 
appreciates the intent of the draft bill to direct VA to submit 
an annual report on the Veterans Health Administration, but 
notes that the bill may be unnecessary as the data and related 
measures contemplated by the bill are already compiled as part 
of an ongoing, automated process for data that are available 
publicly; yet, in the testimony before the subcommittee in 
January, the Congressional Budget Office stated that the VA 
provided limited data to the Congress and the public about its 
costs and operational performance, and that if it was provided 
on a regular and systemic basis, it could help inform 
policymakers about the efficiency and cost-effectiveness of 
VHA's services. So similar sentiments were also issued by the 
Independent Budget and The American Legion and by others during 
testimony on the first panel.
    Can you explain the discrepancy between what you said in 
your testimony and the testimony of the Congressional Budget 
Office and the others regarding the VA's record of 
transparency?
    Dr. Jain. Sir, so this, you could consider this, in part, 
an evolution, I guess, you could say in our thinking. But the 
current secretary has made it very clear that we want to be 
transparent. And as you know, sir, the impact of a lot of the 
Choice Act legislations, we are in the process of preparing a 
lot of the reports, so when we saw your bill, we certainly 
understand the intent of what you want, but our only 
clarification that we would like to work with you and the 
Committee, is to understand what you are looking for so at the 
end of the day we can give you and you are satisfied with the 
report. That is the only hesitation of the----
    Mr. Benishek. Right. Right.
    Dr. Jain. Yes.
    Mr. Benishek. Well, I think, you know, if you are already 
compiling the data that is required in the bill, presumably 
that information could be compiled into a report and provided 
to us.
    Dr. Jain. We are and, yes, that is correct.
    Mr. Benishek. It seems to me that the information--that you 
may have the information, but it is not compiled in a way that 
makes any sense to us. And, basically, what I am trying to 
figure out is what somebody else mentioned here, too: How much 
money are we spending on nurses and doctors and how much money 
are you spending on bureaucrats? Most hospitals and other 
people around the country who provide healthcare, they can 
define those kinds of numbers. The VA doesn't. I want to be 
sure that the billions of dollars that we are sending to the VA 
gets spent in the most effective way that gives the most care 
to our veterans and it is not being eaten up by a bureaucracy.
    And I think that we don't have access to those kinds of 
numbers, Dr. Jain, and those are exactly the kinds of numbers 
that I am asking you for. Where is the money going and how are 
you compared to everybody else in spending these billions of 
dollars that we send to the veterans healthcare?
    Dr. Jain. Absolutely, sir. I think once we can work with 
you and the Committee to understand your needs--we don't have 
that data ready-made; that is the difference, I think, is what 
I believe what was stated in the previous testimony. And we 
don't have it today, either. We have pieces of that, but if we 
understand your needs, we are willing to work with you and to 
provide to you----
    Mr. Benishek. Well, I am glad that you agree with me that 
there is more data----
    Dr. Jain. Right.
    Mr. Benishek [continuing]. That VA needs to provide to 
policymakers so we can make better decisions.
    Dr. Jain. Yes, sir.
    Mr. Benishek. So I am happy to hear that from you.
    I am going to yield back, and does anyone else have any 
other questions that they would like to ask?
    Well, thank you very much, Dr. Jain for being on the panel.
    Thank you for being here, and all the others, and for those 
who attended as well. We may be submitting additional questions 
for the record, and I would appreciate your assistance in 
ensuring that an expedient response to these inquiries is 
given. And with that, if there are no further questions, the 
third panel is excused.
    I ask unanimous consent that all members have five 
legislative days to revise and extend their remarks and exclude 
extraneous material. Without objection, so ordered.
    I would like to thank, again, all the witnesses. The 
hearing is now adjourned.
    [Whereupon, at 12:46 p.m., the subcommittee was adjourned.]

                                APPENDIX

             Prepared Statement of the Chairman Jeff Miller

    It is a pleasure to be here today with you, Subcommittee 
Ranking Member Brownley, and other Members of the Subcommittee 
on Health as well as with representatives from our Veterans 
Service Organizations (VSOs), interested stakeholders, and 
audience members to discuss my draft bill to improve the 
reproductive treatment provided to certain disabled veterans.
    The conflicts in Iraq and Afghanistan over the last decade 
have resulted in significant increases in reproductive organ 
and spinal cord injuries among our servicemembers.
    These wounds can have serious and life-long repercussions 
on the daily lives of our veterans and their families, not the 
least of which can be the inability to conceive a child.
    While the Department of Veterans Affairs (VA) does provide 
a number of fertility services to veterans, VA is currently 
prohibited via regulation from providing In Vitro Fertilization 
(IVF), one of most well-known and arguably most effective 
assisted reproductive technologies.
    The VA is also prohibited by statute from providing any 
such treatment to a veteran's spouse.
    In contrast, the Department of Defense has been providing 
IVF to severely wounded servicemembers since 2010.
    What this disparity results in is severely disabled 
veterans having to decide whether or not to pursue a family 
though IVF before they separate from service-while still 
actively recovering from their wounds and during what can be a 
highly stressful transition period-or pay for the procedure 
out-of-pocket once they move to veteran status.
    Because IVF can be costly, for some veterans, waiting until 
they are in VA care can mean having to choose between financial 
freefall or forgoing their dreams of having a child altogether.
    That is an agonizing and unacceptable choice that this 
draft bill would help prevent veterans with these disabilities 
from ever having to make.
    The draft bill would authorize VA to provide assisted 
reproductive technology, in addition to any fertility treatment 
already authorized, to enrolled veterans whose service-
connected disability includes an injury to the reproductive 
organs or spinal cord that directly results in the inability to 
procreate without the use of assisted reproductive technology.
    Assisted reproductive technology is defined in the bill to 
include IVF as well as other technologies determined by VA as 
appropriate to be used to assist reproduction.
    In furnishing IVF or similar procedures to an eligible 
veteran, VA would also be authorized to provide services to 
that veteran's spouse.
    Like DoD, VA would be limited to providing eligible 
veterans three in vitro fertilization cycles, resulting in a 
total of not more than six implantation attempts.
    The draft bill would further stipulate that VA is 
authorized to provide for storage of genetic material for three 
years, after which the veteran and his or her spouse is 
responsible for the costs of such storage; that VA cannot 
possess or make any determinations regarding the disposition of 
genetic material; and, that VA is required to carry out 
activities relating to the custody or disposition of genetic 
material in accordance with the relevant state law.
    Finally, the draft bill would prohibit VA from providing 
any benefits relating to surrogacy or third-party genetic 
material donation.
    In short, this legislation mirrors the IVF benefit that is 
provided to active-duty servicemembers in DoD, creating parity 
between the two Departments while opening the door to 
parenthood for disabled veterans who may otherwise not have the 
resources to pursue such a path.
    I am proud to say that this proposal is supported by many 
of our VSOs, by RESOLVE: The National Infertility Association, 
and by the American Society for Reproductive Medicine.
    I thank them all for their support of this draft and for 
their thoughtful comments and recommendations for how it may be 
improved.
    I look forward to working hand-in-hand with Subcommittee 
Members to address those suggestions and otherwise strengthen 
the language in the draft bill before it is introduced and 
moved forward.
    This draft is derived partly from the recent Subcommittee 
roundtable where infertility among disabled veterans was 
discussed in depth and I am grateful to you, Dan, for holding 
that roundtable as well as this hearing today.
    I urge all of my colleagues to join me in supporting this 
draft bill and, with that, I yield back.

                                 <F-dash>

            Prepared Statement of the Hon. Gus M. Bilirakis

    Chairman Benishek, Ranking Member Brownley, and members of 
the Health Subcommittee,
    Thank you for holding this very important hearing and for 
the opportunity to discuss my bill, H.R. 271, the Creating 
Options for Veterans' Expedited Recovery (COVER) Act.
    With statistics showing that one in five Veterans who 
served in Iraq and Afghanistan have been diagnosed with Post-
Traumatic Stress, we must responsibly ask ourselves--are we 
doing enough when it comes to addressing mental health in our 
Veteran population?
    Recent data has shown that every day in this country--an 
estimated 18-22 Veterans take their own lives. This statistic 
answers the question I posed earlier. It is obvious more needs 
to be done. That is why I reintroduced the COVER Act in the 
114th Congress.
    The COVER Act will establish a commission to examine the 
Department of Veterans Affairs current evidence-based therapy 
treatment model for treating mental illnesses among veterans. 
Additionally, it will analyze the potential benefits of 
incorporating complementary alternative treatments available 
within our communities.
    The duties of the commission designated under the COVER Act 
include conducting a patient-centered survey within each 
Veterans Integrated Service Network. The survey will examine 
several different factors related to the preferences and 
experiences of Veterans with regard to their interactions with 
the Department of Veterans Affairs. Instead of presuming to 
know what is best for Veterans, we should simply ask them and 
work with them on finding the right solutions that best fits 
their unique needs.
    The scope of the survey will include: the experience of a 
Veteran when seeking medical assistance with the Department of 
Veterans' Affairs; the experience of Veterans with non-VA 
medical facilities and health professionals for treating mental 
health illnesses; the preferences of a Veteran on available 
treatments for mental health and which they believe to be most 
effective; the prevalence of prescribing prescription drugs 
within the VA as remedies for treating mental health illnesses; 
and outreach efforts by the VA Secretary on available benefits 
and treatments.
    Additionally, the commission will be tasked with examining 
the available research on complementary alternative treatments 
for mental health and identify what benefits could be attained 
with the inclusion of such treatments for our Veterans seeking 
care at the VA. Some of these alternative therapies include, 
among others: accelerated resolution therapy, music therapy, 
yoga, acupuncture therapy, meditation, outdoor sports therapy, 
and training and care for service dogs.
    Finally, the commission will study the potential increase 
in health claims for mental health issues for Veterans 
returning from the most recent theatres of war. We must ensure 
that the VA is prepared with the necessary resources and 
infrastructure to handle the increase in those utilizing their 
earned benefits to address the mental and physical ailments 
incurred from military service.
    Once the Commission has successfully completed their 
duties, a final report will be issued and made available 
outlining its recommendations and findings based on their 
analysis of the patient-centered survey, alternative treatments 
and evidence-based therapies. The Commission will also be 
responsible for creating a plan to implement those findings in 
a feasible, timely, and cost effective manner.
    Last Congress, I was very pleased this subcommittee 
considered the COVER Act in a legislative hearing. At this 
hearing, all the Veterans Service Organizations (VSOs) and 
organizations testifying had supported the COVER Act. I want to 
thank you all again for your support through your testimonies 
given today.
    In closing, we have the support from Veterans and the 
organizations that work closely with them. And it is clear that 
there is a need to do more in how we--as a nation--address 
these challenges. The responsibility is ours. The question now 
is--what do we intend to do about it. With that, I urge all my 
colleagues to show your support for our nation's heroes by 
signing onto H.R. 271. Let's get this done for our Veterans and 
let's work together on finally getting them ``covered.''

                 Prepared Statement of Hon. Janice Hahn

    I would like to thank this Subcommittee, especially 
Chairman Benishek and Ranking Member Brownley--two friends of 
mine--for holding this important hearing.
    Homeless veterans are a pressing problem for this nation. 
More than 62,000 veterans are homeless on any given night, and 
over 120,000 veterans will experience homelessness over the 
course of the year.
    While only 7% of Americans qualify as veterans, veterans 
make up nearly 13% of the homelessness population.
    Sadly, my home of Los Angeles County has the most homeless 
veterans in the nation.
    Today, I want to address one segment of homeless veterans--
those who are homeless because of domestic violence. Currently, 
the Department of Veterans Affairs' definition of homeless 
veterans does not include veterans who are homeless because of 
domestic violence.
    Across the country, too many victims of domestic violence 
feel that there is nowhere for them to turn. Lacking resources, 
help and a safe place to go, some victims stay with their 
abusers.
    Tragically, too often women veterans are among those who 
find themselves in this horrible situation. According to the 
VA, 39% of our women veterans report experiencing domestic 
violence, well above the national average. However, because of 
antiquated laws on the books, they have not been eligible to 
access resources designated for ``homeless veterans.''
    I approached Chairman Benishek with my legislation--H.R. 
627, which updates the definition of ``homeless veteran'' to 
include victims fleeing domestic violence, not only was he 
extremely supportive of it, he joined me in introducing it. For 
that, I thank you Mr. Chairman.
    Our legislation will update the definition of homeless 
veteran to include veterans fleeing domestic violence, and will 
correct this oversight and ensure that veterans fleeing 
domestic violence can receive benefits from the VA.
    This is a minor change of great importance to ensure 
veterans do not feel trapped in dangerous situations.
    H.R. 627 is endorsed by countless veterans organizations, 
such as Veterans of Foreign Wars (VFW), AMVETS, The National 
Coalition for Homeless Veterans, The Service Women's Action 
Network, Blinded Veterans Association, and the list goes on and 
on.
    Providing benefits to veterans driven to homelessness by 
domestic violence is something we all should support--and have 
supported in the past.
    In fact, I have worked with the House Appropriations 
Veterans Affairs Subcommittee to include report language the 
past two years to make these benefits available. That process, 
however, only helps until the next year and has to be repeated 
every year to provide temporary help.
    Now is the time to stop making temporary fixes. This 
legislation permanently fixes this loophole for veterans.
    While it is unknown how many veterans will be helped by 
this bill, if it provides one veteran the support they need to 
leave a dangerous situation, our work here will be worth every 
minute.
    We must step up to provide these heroes who have protected 
us with the resources they need including a place where they 
can be safe and protected.
    In conclusion, I want to thank you for working with me to 
solve an urgent problem, and I yield back the balance of my 
time.

                                 <F-dash>

              Prepared Statement the Hon. Jackie Walorski

    Good morning Chairman Benishek, Ranking Member Brownley, 
and members of the Committee. Thank you for the opportunity to 
discuss H.R. 1369, the Veterans Access to Extended Care Act. 
This important bill will allow the Department of Veterans 
Affairs (VA) to enter into provider agreements for extended 
care services.
    VA offers a variety of long-term services and supports to 
veterans in the form of nursing home care, adult day care, 
respite care, domiciliary services, hospice and palliative 
care. Care is provided through VA medical centers, State 
Veterans Homes, or other community organizations. Currently, 
non-VA providers at community organizations must contract with 
the VA to provide these kinds of services. Under the Service 
Contract Act (SCA), these community providers are considered 
federal contractors, a designation that imposes burdensome 
reporting requirements relating to the demographics of 
contractor employees and applicants, ultimately discouraging 
numerous providers from entering into contracts with the VA. 
For these organizations, reimbursement from the VA for caring 
for veterans is simply not worth the cost of compiling and 
reporting the data required by general federal contract law. 
This situation has left many veterans and their families 
without the ability to find providers close to their homes.
    On February 13, 2013, the VA released proposed rule, RIN 
2900-A015, which would have increased access to these non-VA 
extended care services from local providers,\1\ by permitting 
these providers to enter into agreements with the VA under the 
same guidelines that providers for Medicare enter into 
agreements with the Centers for Medicare & Medicaid Services 
(CMS). This means that non-VA providers would no longer be 
considered federal contractors. Non-VA providers would still 
have to comply with all federal hiring laws, but they would be 
relieved from the burdensome reporting requirements.
---------------------------------------------------------------------------
    \1\ Use of Medicare Procedures To Enter Into Provider Agreements 
for Extended Care Services, Proposed Rule: RIN 2900-AO15. Federal 
Register Vol. 78, No. 30 (February 13, 2013).
---------------------------------------------------------------------------
    In conjunction with a Senate letter that was sent in June 
of 2014, Congresswoman Tulsi Gabbard and I, along with 107 of 
our colleagues in the House sent a letter in August of 2014 to 
Secretary McDonald encouraging the release of the final VA 
provider agreement rule. Unfortunately, despite the willingness 
of the Department, the VA never had the legislative authority 
to begin with to enact this rule.
    In response, Representative Gabbard and I introduced H.R. 
1369, Veterans Access to Extended Care Act. This commonsense 
bill gives the VA the legislative authority it needs to follow 
through with the original proposed rule. Specifically, this 
bill amends subparagraph (B) of section 1720(c) (1) of Title 38 
of the U.S. Code by adding an exemption for extended care 
service providers from being treated as federal contractors for 
the acquisition of goods or services. The bill also modifies 
section 6702(b) of Title 41 of the U.S. Code, which relieves 
providers from certain reporting requirements to the Department 
of Labor. Lastly, it includes quality assurance provisions to 
ensure the safety and a high standard of care our veterans 
deserve. Should a provider fail to comply with a provision of 
the agreement, VA has the authority to terminate the agreement.
    Eliminating this contractor designation will encourage more 
extended care service providers to enter into agreements, which 
will provide veterans with more options in the community. 
Incentivizing more local providers to work with the VA will 
increase access to care that is closer to home allowing nearby 
family and friends to provide an additional support structures 
to our veterans. The family structure during these times is a 
vital part of ensuring a veteran's quality of life. These 
individuals have sacrificed so much in the name of liberty; 
they should not have to worry about being unable to find care 
close to home because their hometown providers do not have the 
resources necessary to qualify as a government contractor. 
Eliminating this designation will encourage more extended care 
service providers to enter into agreements, which will provide 
veterans with more options in the community that will allow 
their family, friends to provide an additional support 
structure for them. Providing veterans with the care they need 
and deserve continues to be a top priority of mine and every 
member of this committee. I am grateful to work with 
Representative Gabbard, Senator Hoeven, Senator Manchin, and 
the Committee in addressing this critical issue for veterans. I 
thank you again for this opportunity to speak today.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                        Statement for the Record

    Statement of Hon. Corrine Brown, Full Committee, Ranking Member

    Women Veterans Readjustment and Reintegration

    Mr. Chairman and Members of the Committee, I would like to 
offer this testimony on behalf of H.R. 1575, legislation to 
honor the service and sacrifice of our heroic women veterans 
recently separated from military service after prolonged 
deployments. This bill extends and makes permanent a very 
successful pilot program at the Department of Veterans Affairs 
which provides psychiatric and psychological counseling and 
support in retreat settings for newly returned women veterans.
    This legislation follows the release of a report by the 
Veterans Health Administration showing that this limited, 2-
year pilot program, run by the Readjustment Counseling Service, 
has shown positive, measurable results helping returning women 
veterans experiencing post-traumatic stress, depression, sleep 
disturbances and isolation. Many of these servicewomen have 
been evaluated as service connected for severe PTSD.
    In surveys, participants have consistently reported 
experiencing a marked decrease in stress symptoms and an 
increase in coping skills, including understanding better how 
to develop support systems and to access available resources at 
VA and in their communities following the program and as they 
reenter civilian life.
    The Veterans Health Administration has completed six 
retreats in the two year pilot period. Post 9/11 women 
veterans, often combat veterans, are brought together in groups 
of about 20, in outdoor settings. Transportation is paid for. 
These one-week sessions were held in California, Colorado, New 
Mexico and Connecticut. The veterans, most of whom are coping 
with the effects of severe PTS, some as a result of sexual 
trauma while in the military, participated in trust building 
exercises and worked with counselors and psychological 
educators to build peer support. Other services offered on an 
as-needed basis are financial and occupational counseling and 
conflict resolution training.
    H.R. 1575 provides VA with permanent authority to extend 
the program using the same measurements and eligibility 
requirements in the original law, P.L. 111-163. This expansion 
will mean an increase in the number of sessions and locations 
for the program. VA must submit a report to Congress every two 
years on the program.
    This program is limited, well run and highly successful 
thereby providing us with a bit of good news and, more 
importantly, a chance to ensure a healthier, more successful 
transition back to civilian life for a specific group of heroic 
women warriors.
    I appreciate the opportunity to provide this testimony on 
behalf of H.R. 1575, invite my colleagues' support, and look 
forward to its enactment as soon as possible.

                    American Health Care Association

    Dear Chairman Dan Benishek:

    I serve as the president and chief executive officer of the 
American Health Care Association (AHCA), the nation's largest 
association of long term and post-acute care providers. The 
association advocates for quality care and services for the 
frail, elderly, and individuals with disabilities. Our members 
provide essential care to millions of individuals in more than 
12,000 not for profit and for profit member facilities.
    AHCA, its affiliates, and member providers advocate for the 
continuing vitality of the long term care provider community. 
We are committed to developing and advocating for public 
policies which balance economic and regulatory principles to 
support quality of care and quality of life. Therefore, I 
appreciate the opportunity today to submit a statement on 
behalf of AHCA for the hearing record in strong support of the 
Veterans Access to Extended Care Act (H.R. 1369/S. 739), which 
would grant the U.S. Department of Veterans Affairs (VA) the 
legislative authority to enter into Provider Agreements for 
extended care services.
    The VA released a proposed rule, RIN 2900-A015, on Provider 
Agreements in February of 2013. This important rule, among 
other things, increases the opportunity for veterans to obtain 
non-VA extended care services from local providers that furnish 
vital and often life-sustaining medical services. This rule is 
an example of how government and the private sector can 
effectively work together for the benefit of veterans who 
depend on long term and post-acute care. Last Congress, close 
to half of the U.S. Senate chamber and 109 U.S. House members 
signed onto a letter to the VA encouraging the release of the 
final VA provider agreement rule. It was determined that the VA 
needs the legislative authority to enter into these agreements, 
which the Veterans Access to Extended Care Act provides.
    It is long-standing policy that Medicare (Parts A and B) or 
Medicaid providers are not considered to be federal 
contractors. However, if a provider currently has VA patients, 
they are considered to be a federal contractor and under the 
Service Contract Act (SCA). The Veterans Access to Extended 
Care Act would ensure that providers could enter into VA 
Provider Agreements, and would therefore not have to follow 
complex federal contracting and reporting rules that come with 
being deemed a federal contractor or under the SCA.
    Federal contracts come with extensive reporting 
requirements to the Department of Labor on the demographics of 
contractor employees and applicants, which have deterred 
providers, particularly smaller ones, from VA participation. 
The use of Provider Agreements for extended care services would 
facilitate services from providers who are closer to veterans' 
homes and community support structures. Once providers can 
enter into Provider Agreements, the number of providers serving 
veterans will increase in most markets, expanding the options 
among veterans for nursing center care and home and community-
based services. Services covered as extended care under the 
proposed rule include: nursing center care, geriatric 
evaluation, domiciliary services, adult day healthcare, respite 
care, and palliative care, hospice care, and home healthcare.
    AHCA endorses H.R. 1369/S. 739, and applauds Congresswomen 
Jackie Walorski (R-IN-2nd) and Tulsi Gabbard (D-HI-2nd) and 
Senators John Hoeven (R-ND) and Joe Manchin (D-WV) for 
introducing this important legislation that will ensure that 
those veterans who have served our nation so bravely have 
access to quality healthcare. Thank you again for the 
opportunity to comment on this important matter.
    Sincerely,
    Mark Parkinson, AHCA/NCAL President & CEO

                                 ------

               American Society for Reproductive Medicine

    Dear Chairman Dan Benishek:

    Thank you for the opportunity to offer comments regarding 
draft legislation to allow the Department of Veterans Affairs 
to provide reproductive treatment to disabled veterans that 
includes in vitro fertilization. The American Society for 
Reproductive Medicine is pleased that you have considered this 
bill for a public hearing. It is nothing but unjust to send our 
military personnel into harm's way and to not provide health 
care services to address health care needs that arise due to 
their service and dedication to our country. ASRM solidly 
supports the provision of fertility services to severely 
wounded veterans, particularly given that similarly situated 
individuals with coverage under TRICARE are allowed this 
covered benefit.
    ASRM is a multidisciplinary organization of nearly 8,000 
medical professionals dedicated to the advancement of the 
science and practice of reproductive medicine. ASRM members 
include obstetrician/gynecologists, urologists, reproductive 
endocrinologists, nurses, embryologists, mental health 
professionals and others. As the medical specialists who 
present treatment options for patients and perform procedures 
during what is often an emotional time for them, we recognize 
how important a means to addressing their medical condition can 
be for those hoping to build their families.
    The draft legislation would direct the Secretary of 
Veterans Affairs to provide fertility treatment, including in 
vitro fertilization, to a disabled veteran who has an injury to 
his/her reproductive organs or spinal cord and such injury 
directly results in the veteran being unable to procreate 
without assisted reproductive technology. Importantly, the 
draft bill provides the same treatment for the veterans' 
spouse. We find that the coverage regarding number of in vitro 
fertilization attempts and number of years of storage of 
genetic material is reasonable. In providing for the coverage 
of cryopreservation of genetic material, we would recommend the 
bill specifically include gametes (sperm and egg) and also 
embryos that may be created as part of the assisted 
reproduction procedure. It is important that the 
cryopreservation of genetic material include gametes because 
the disabled veteran may not be in a position to begin the part 
of fertility treatment that includes in vitro fertilization 
until he/she is better able to emotionally and physically 
prepare for that treatment. The cryopreservation of gametes 
allows for the processes of fertilization and transfer of any 
resulting embryos to occur when the patient is ready for that 
process.
    The bill could go further to specifically include coverage 
of services to those affected by infertility caused by exposure 
to toxins during their deployment as these exposures can also 
compromise one's ability to reproduce. So too, fertility 
preservation is a common concern for military personnel with 
orders to deploy. While this is not currently a covered benefit 
under TRICARE and it is not within this panel's jurisdiction to 
make requirements of the TRICARE program, fertility 
preservation is an important topic to raise. The technology 
exists to provide these services. The nature of the promises we 
make to those individuals who risk everything for our country 
warrants a thoughtful examination of whether this benefit 
should also be part of the covered services for military 
personnel.
    ASRM would further recommend that the bill allow for the 
use of donor gametes as part of the covered treatment options. 
For some severely injured veterans, sperm or egg retrieval may 
be impossible. The desire to have a family is no less important 
to those individuals and third party collaboration as a family 
building option is an appropriate medical option for some 
infertile patients.
    The bill limits required treatments to disabled veterans or 
their spouse. Until such time that every state legally 
recognizes the marriage of same sex partners, the effect of 
this bill will be that only those veterans whose marriage is 
deemed legal will be furnished those services outlined in the 
bill. This effectively denies coverage to injured veterans who 
are single or who are in same sex partnerships. It is no longer 
a stigma to reproduce outside of the context of marriage, or a 
male/female marriage, and ASRM would recommend that holding 
veterans to a standard that is not the norm any longer in 
today's society is discriminatory just as denying to these 
individuals the ability to serve in the military.
    Thank you for the opportunity to comment on this bill and 
for your attention to this important public health issue. Our 
nation's military personnel and veterans deserve to have access 
to the full complement of infertility treatments that are 
available and we are pleased that this committee has recognized 
the need to correct the inequities that exist between the 
health plans available under the DoD and the Veterans' Health 
plans.
    Sincerely,
    Rebecca Z. Sokol, MD, MPH, President,
    American Society for Reproductive Medicine


                     Concerned Veterans For America

Draft Legislation on Reproductive Treatment for Disabled 
Veterans

    To amend title 38, United States Code, to improve the 
reproductive treatment provided to certain disabled veterans.
    CVA has no position on this legislation.

Draft Legislation Requiring an Annual VHA Report

    To amend title 38, United States Code, to direct the 
Secretary of Veterans Affairs to submit an annual report on the 
Veterans Health Administration and the furnishing of hospital 
care, medical services, and nursing home care by the Department 
of Veterans Affairs.
    CVA supports the principles of the legislation, which 
requires more detailed reporting from VHA in important areas 
where data have been lacking. In order to ensure 
accountability, it is important that VHA report its performance 
numbers in a way that enables decision-makers and veterans to 
assess their efficiency and efficacy.
    A CBO report released last December which examined the 
comparative cost of VA-provided healthcare versus and private-
sector healthcare notes that ``Comparing health care costs in 
the VHA system and the private sector is difficult partly 
because the Department of Veterans Affairs (VA), which runs 
VHA, has provided limited data to the Congress and the public 
about its costs and operational performance''. \1\
---------------------------------------------------------------------------
    \1\ Congressional Budget Office. (2014). Comparing the Costs of the 
Veterans' Health Care System With Private-Sector Costs (CBO Publication 
No. 49763). Washington, DC: U.S. Government Printing Office. Retrieved 
from https://www.cbo.gov/sites/default/files/cbofiles/attachments/
49763-VA--Healthcare--Costs.pdf.
---------------------------------------------------------------------------
    This legislation would be an important step towards making 
sure that the VHA and the VA become more transparent 
institutions, which would benefit both the taxpayers and the 
veterans. While CVA remains committed to comprehensive reform 
of VHA and the Department of Veterans Affairs, these reporting 
requirements are an important step toward more accountability 
and better care for our veterans.
    CVA supports this legislation.

Draft Legislation: The Toxic Exposure Research Act of 2015

    To establish in the Department of Veterans Affairs a 
national center for research on the diagnosis and treatment of 
health conditions of the descendants of veterans exposed to 
toxic substances during service in the Armed Forces that are 
related to that exposure, to establish an advisory board on 
such health conditions, and for other purposes.
    CVA has no position on this legislation.

HR 271: The Cover Act

    To establish a commission to examine the evidence-based 
therapy treatment model used by the Secretary of Veterans 
Affairs for treating mental illnesses of veterans and the 
potential benefits of incorporating complementary alternative 
treatments available in non-Department of Veterans Affairs 
medical facilities within the community.
    CVA has no position on this legislation.

HR 627: To Expand of Definition of Homelessness

    To amend title 38, United States Code, to expand the 
definition of homeless veteran for purposes of benefits under 
the laws administered by the Secretary of Veterans Affairs.
    CVA has no position on this legislation.

HR 1369: Veterans Access to Extended Care Act of 2015

    To modify the treatment of agreements entered into by the 
Secretary of Veterans Affairs to furnish nursing home care, 
adult day health care, or other extended care services, and for 
other purposes.
    CVA believes that this legislation represents a good step 
forward in alleviating the problems that the Department of VA 
has in providing veterans access to the care that they need and 
increasing the partnership between VA and private sector care, 
by simplifying the process that non-VA providers must go 
through to enable them to provide extended care to veterans. 
CVA strongly believes that it is important to ensure that there 
are more choices for veterans regarding the services that are 
available to them within the current overall institutional 
arrangement, and that VA should work with private-sector 
healthcare providers in effective ways to ensure that veterans 
receive the quality of care they deserve. This legislation is 
in keeping with that goal.
    CVA supports this legislation.

HR 1575: Retreat Counseling for Women Veterans

    To amend title 38, United States Code, to make permanent 
the pilot program on counseling in retreat settings for women 
veterans newly separated from service in the Armed Forces.
    CVA has no position on this legislation.

                                 ----

                                RESOLVE:

                  The National Infertility Association

    Dear Chairman Dan Benishek:

    Thank you for the opportunity to provide this statement 
regarding draft legislation to improve reproductive treatment 
provided to certain disabled veterans. This is incredibly 
important legislation for our wounded warriors who expect our 
government to care for them if they are injured in their 
service to our country. The ability to procreate is the most 
basic and fundamental desire of human beings. If that ability 
is damaged as a result of their service, then we owe it to them 
to provide access to medical treatments that will allow them to 
become a parent.
    RESOLVE: The National Infertility Association was founded 
in 1974 to provide information, support, awareness and advocacy 
for women and men living with infertility. RESOLVE is the 
oldest and largest patient advocacy organization in the U.S. 
and the only patient organization advocating for access to 
infertility services for our active duty military and veterans. 
We applaud the committee for discussing this important topic.
    The draft legislation provides for certain disabled 
veterans to access in vitro fertilization (IVF). Right now the 
Veterans Administration is prohibited from providing access to 
IVF, which causes a critical gap in coverage since that same 
benefit is offered to wounded service-members still covered 
under TRICARE. While the TRICARE supplemental benefit for 
certain wounded service-members is needed, most of those who 
could benefit from IVF transition to the Veteran's health 
system and by the time they are ready to become a parent, they 
discover that the VA does not provide access to IVF. This draft 
legislation will fix this gap in service and solve a major 
problem facing our disabled veterans.
    This bill also provides for access to reproductive care for 
the spouse of a veteran. While the VA is not responsible for 
the healthcare of spouses and dependents, reproduction is 
unique in that male and female gametes (sperm and egg) are 
needed as well as a female to carry the pregnancy. Only 
providing care to the male or female does not work--both must 
be treated.
    We do ask that the committee consider all of the injuries 
that may result in infertility, as the bill only covers injury 
to the reproductive organs or spinal cord. Amputations, 
Traumatic Brain Injuries and exposure to toxins and chemicals 
can also impact the ability to procreate without assisted 
reproductive technologies. All of our wounded veterans with 
infertility should have access to this coverage.
    We applaud the committee for this important first step in 
opening up advanced reproductive care to veterans. We are 
hopeful that this first step will lead to further coverage in 
the future for all veterans, not just those with a service 
related injury; access to IVF for service-members covered under 
TRICARE; coverage for fertility preservation before deployment 
(the freezing of sperm, eggs and/or embryos); access to care 
for those who are single or not married with infertility; and 
coverage for the use of donor gametes (donated sperm, egg or 
embryos) for those who can no longer produce viable gametes to 
have a child.
    We stand ready to work with Congress to get this important 
legislation passed as quickly as possible. Our Veterans are 
waiting--we owe it to them to fix this coverage gap with the VA 
and let them access the advanced medical care that they need 
and so deserve.
    Sincerely,
    Barbara L. Collura, President & CEO
    RESOLVE: The National Infertility Association, 7918 Jones 
Branch Drive, Suite 300, McLean, VA 22102, www.resolve.org 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dab8b9b5b6b6afa8bb9aa8bfa9b5b6acbff4b5a8bd">[email&#160;protected]</a>, 1-703-556-7172

                                 ----

             Veterans of Foreign Wars of the United States

    Statement of Carlos Fuentes, Senior Legislative Associate 
National Legislative Service, Veterans of Foreign Wars of the 
United States APRIL 23, 2015
    Mr. Chairman and Members of the Subcommittee:
    On behalf of the men and women of the Veterans of Foreign 
Wars of the United States (VFW) and our Auxiliaries, thank you 
for the opportunity to offer our thoughts on today's pending 
legislation.

H.R. 271, Creating Options for Veterans Expedited Recovery 
(COVER) Act:

    The VFW supports this legislation, which would establish a 
commission to examine the efficacy of the Department of 
Veterans Affairs' (VA) mental healthcare and identify ways to 
improve outcomes.
    Too often, the VFW hears stories of veterans who have been 
prescribed high doses of ineffective medications to treat their 
mental health conditions. Many of these medications, if 
incorrectly prescribed, have been known to render veterans 
incapable of interacting with their loved ones and even 
contemplate suicide. With the expanding evidence of the 
efficacy of non-pharmacotherapy modalities, such as 
complementary and alternative medicine (CAM) therapies, VA must 
ensure it affords veterans the opportunity to access effective 
mental health treatments that minimize adverse outcomes.
    VA has made a concerted effort to change its mental 
healthcare providers' dependence on pharmacotherapy to treat 
mental health conditions and manage pain. In 2011, the 
Minneapolis VA Medical Center launched its Opioid Safety 
Initiative. Aimed at changing the prescribing habits of 
providers, the Opioid Safety Initiative educates providers on 
the use of opioids, serves as a tool to taper veterans off 
high-dose opioids, and offers veterans alternative--non-
pharmacotherapy--modalities for pain management. Last month, VA 
deployed the Opioid Therapy Risk Report, a byproduct of the 
Opioid Safety Initiative, to enable providers to better track 
and manage their patients' high-dose prescriptions.
    Timely and accessible mental healthcare is crucial to 
ensuring veterans have the opportunity to successfully 
integrate back into civilian life. With more than 1.4 million 
veterans receiving specialized VA mental health treatment each 
year, VA must ensure such services are safe and effective. VA 
has made progress in reducing its dependence on pharmacotherapy 
to treat mental health conditions and manage pain. However, 
more can be done to ensure veterans have access to CAM 
therapies that minimize side effects and improve outcomes.

H.R. 627, to expand the definition of homeless veteran for 
purposes of benefits under the laws administered by the 
Secretary of Veterans Affairs:

    The VFW is pleased to support this legislation, which would 
clarify the definition of homeless, thereby aligning it with 
the McKinney-Vento Act to include those displaced by domestic 
violence.
    No veteran should ever be homeless, and expanding the 
definition of homeless to include veterans who are fleeing 
situations of domestic abuse is the right thing to do. This 
change would ensure veterans who have the courage to leave 
their abusive and sometimes life-threatening situations receive 
access to the benefits VA already provides to thousands of 
homeless veterans. The VFW believes this legislation will 
significantly improve the lives of those who become homeless as 
a result of difficult circumstances outside of their control, 
and help them begin a new chapter in their lives.

H.R. 1369, Veterans Access to Extended Care Act of 2015:

    The Veterans Access to Extended Care Act of 2015 would 
strengthen VA's authority to enter into provider agreements 
with extended care facilities, while ensuring such facilities 
meet certain safety and quality standards. The VFW supports 
this legislation, but urges the Subcommittee to ensure it 
provides VA the authority it needs to properly administer all 
of its nursing home, assisted living, patient-directed and 
extended care authorities and programs.
    VA has the authority to enter into provider agreements with 
extended care facilities to provide long-term care to veterans 
who need nursing home level services. However, a recent opinion 
by the Department of Justice found that VA provider agreements 
must comply with Federal Acquisition Regulations (FAR). Thus, 
VA has been unable to proceed with its plans to use its 
provider agreement authority to expand the extended care 
services it provides veterans.
    The VFW has heard from many private sector extended care 
facilities that want to care for veterans, but do not have the 
staff to comply with the onerous compliance requirements under 
the FAR. As a result, veterans throughout the country received 
notice that they may be uprooted from the nursing homes they 
have called home for many years. For example, the VFW has 
received assistance requests from nearly a dozen family members 
of veterans in a nursing home in Lincoln, NE, that may no 
longer be able to provide services to veterans if its provider 
agreement with VA is not renewed. One of the veterans has 
rapidly progressing multiple sclerosis and needs comprehensive 
healthcare services. His family tells us he is satisfied with 
the ``excellent care'' he receives and was looking forward to 
calling the nursing facility ``his home for the remainder of 
his days.'' This legislation would ensure this veteran and many 
like him are able to remain in the extended care facilities 
they call home, and authorize VA to provide the same 
opportunity for countless veterans.

H.R. 1575, to make permanent the pilot program on counseling in 
retreat settings for women veterans newly separated from 
service in the Armed Forces:

    This legislation would make retreat counseling services 
permanent for transitioning women veterans. The VFW supports 
this legislation and would like to offer suggestions to 
strengthen it, which we hope the Subcommittee will consider.
    VA's counseling retreat program has served as an invaluable 
tool to help newly discharged women veterans seamlessly 
transition back into civilian life. The VFW supported the 
original program established by the Caregivers and Veterans 
Omnibus Health Services Act of 2010 and is happy to see this 
program continue.
    Another successful program created by the Caregivers and 
Omnibus Health Services Act of 2010 is the childcare pilot 
program. This program has been well received by veterans at all 
four pilot sites and has also contributed to the success of the 
counseling retreat program. The VFW has heard from veterans who 
say they could not have completed their treatment programs if 
not for the services offered through VA's childcare pilot 
program.
    When extending successful mental healthcare programs, such 
as the retreat counseling program for women veterans, the 
Subcommittee must ensure external barriers to access are 
removed to grant veterans the opportunity to receive the VA 
healthcare and services they need. The VFW urges the 
Subcommittee to amend this legislation to extend and expand the 
childcare program to every VA medical center to ensure newly 
discharged women veterans with children are not precluded from 
obtaining the benefits and services they have earned and 
deserve.

H.R. 1769, Toxic Exposure Research Act of 2015:

    The Toxic Exposure Research Act of 2015, which would 
establish an advisory board and a national center for research, 
would begin to address the multiple health issues faced by 
veterans and their descendants as a result of service-related 
toxic wounds. The VFW is pleased to offer its strong support 
for this legislation.
    This nation has a long history of offering healthcare and 
compensation benefits to veterans who suffer traditional wounds 
on the battlefield. Veterans who suffer from toxic wounds, 
however, have traditionally faced a much more difficult road 
towards accessing the healthcare and benefits they have earned 
and deserve. The VFW believes that toxic wounds are wounds just 
the same and should be treated just as seriously as physical or 
mental wounds. Veterans who suffer from conditions as a result 
of service-related toxic exposure are equally deserving of VA 
healthcare and benefits.
    Toxic wounds are different than other wounds, since toxic 
exposures have the potential to affect a veteran's descendants 
for several generations. For this reason, we strongly support 
the provision of this bill that would establish a national 
center for research to study the health effects service-related 
toxic wounds have on the descendants of individuals who were 
exposed to toxic substances during their military service.
    Children of Vietnam veterans who were exposed to Agent 
Orange receive VA care and benefits for spina bifida, a 
debilitating health condition associated with a parent's 
exposure to dioxins found in Agent Orange. The VFW suspects 
that descendants of Vietnam veterans may suffer from additional 
health conditions that may be associated with exposure to Agent 
Orange. In addition, exposure to toxic substances is not 
limited to Vietnam veterans. The descendants of veterans who 
were exposed to toxic chemicals during the Gulf War, veterans 
of Iraq and Afghanistan exposed to open air burn pits, and 
service members exposed to contaminated water in Camp Lejeune, 
just to name a few, may all be suffering from diseases at a 
higher rate than the general population. This legislation is a 
step toward ensuring veterans' descendants can finally get the 
care and benefits they need.

Draft Legislation to Improve the Reproductive Treatment 
Provided to Certain Disabled Veterans:

    This important legislation would expand VA's authority to 
furnish fertility treatments to veterans who have lost their 
ability to start a family as a direct result of their service-
connected injuries. The VFW supports this legislation and would 
like to offer suggestions to strengthen it, which we hope the 
Subcommittee will consider.
    Due to the widespread use of improvised explosive devices 
during the wars in Iraq and Afghanistan, both female and male 
service members have suffered from spinal cord, reproductive, 
and urinary tract injuries. Many of these veterans hope to one 
day start families, but their injuries prevent them from 
conceiving. When these veterans seek fertility treatment from 
VA, they are told VA services are very limited. In fact, VA is 
prohibited from providing certain fertility treatments like In 
Vitro Fertilization. This legislation would expand VA's 
authority by aligning it with the Department of Defense's 
authority to furnish assisted reproductive treatments to 
severely injured service members.
    However, service-connected infertility is not limited to 
those who have suffered reproductive organ and spinal cord 
injuries. Other injuries and illnesses such as Traumatic Brain 
Injuries and other mental health conditions are known to cause 
infertility. Such veterans deserve the same opportunity to 
start a family as their fellow veterans who have suffered 
injuries to their reproductive organs. For that reason, the VFW 
urges the Subcommittee to expand the eligibility for 
infertility treatment to severely wounded, ill, or injured 
veterans who have infertility conditions incurred or aggregated 
by their military service.
    Additionally, veterans may have personal objections to 
assisted reproductive technologies such as In Vitro 
Fertilization and would like to pursue other options, such as 
adoption. However, VA is not currently authorized to help 
veterans cover the cost of adoption. The VFW believes that VA 
must have the authority to provide veterans the fertility 
treatment options that are best suited for their particular 
circumstances. For that reason, we urge the Subcommittee to 
grant VA more expansive fertility treatment authorities.
    This legislation takes several steps toward ensuring 
veterans who have lost their ability to reproduce have the 
ability to start a family. It would authorize VA to 
cryopreserve a veteran's genetic material for up to three 
years. Starting a family is a life changing decision that takes 
time and should not be hastily made. The VFW strongly supports 
giving veterans the opportunity to delay such a decision. 
However, we urge the Subcommittee to expand the three year 
window. When totaled, a veteran's recovery, education and 
career advancement may cause them to wait years before they are 
physically and financially prepared to start a family. The VFW 
recommends that veterans be allowed to cryopreserve their 
genetic material for a minimum of 10 years. This will prevent 
veterans from feeling rushed into making family planning 
decisions before they are ready.
    Additionally, many severely wounded, ill, and injured 
veterans have not lost the ability to produce gametes, but have 
lost the ability to conceive. The VFW strongly supports the 
provision that would authorize VA to furnish fertility 
treatments to non-veteran spouses.

Draft Legislation to Direct the Secretary of Veterans Affairs 
to submit an annual report on the Veterans Health 
Administration:

    The VFW supports this legislation, which would require VA 
to report the utilization and efficiency of the healthcare it 
provides America's veterans. Such reports would enable Congress 
to conduct proper oversight of the department's Veterans Health 
Administration.

Information Required by Rule XI2(g)(4) of the House of 
Representatives

    Pursuant to Rule XI2(g)(4) of the House of Representatives, 
the VFW has not received any federal grants in Fiscal Year 
2014, nor has it received any federal grants in the two 
previous Fiscal Years.
    The VFW has not received payments or contracts from any 
foreign governments in the current year or preceding two 
calendar years.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
